Semiannual Report
 to the Congress
 October 1, 1991 - March 31,1992




    U.S. General Services Administration
         Office of Inspector General
        Foreword


This report summarizes the Office of Inspector General's
(DIG) activities between October 1, 1991 and March 31,
1992. I would like to highlight several accomplishments that
are important to both the DIG and GSA.

The OIG recommended over $175 million "infunds to be put
to better use and questioned costs." Management decisions
on financial recommendations, voluntary recoveries, court-
ordered recoveries, and investigative recoveries totaled over
$204 million.

During this period, a supplier of computer equipment agreed
to pay $15.1 million to settle its potential civil liability under
the False Claims Act. This is the largest civil settlement ever
received in connection with a single case initiated by the
GSA DIG. We also had a successful case under the Program
Fraud Civil Remedies Act.

We believe our activities have had an impact on improving
Agency operations by preventing fraud, waste, and abuse,
and heightening awareness of the needfor economy and
efficiency.

I want to take this opportunity to thank the GSA
Administrator and Members of Congress for their
unwavering support. I also want to commend the
contributions of each OIG employee to our achievements
during the past 6 months.




WILLIAM R. BARTON
Inspector General



April 30, 1992
               Summary of DIG Performance

                      Total Financial Recommendations
DIG Accomplishments                                             $175,020,463

                      • Recommendations That Funds Be Put
                        to Better Use                           $174,247,493

                      • Questioned Costs                            $772,970

                      Audit Reports Issued                          331

                      Investigative Referrals                       253




                      Savings Achieved (Management Agreements
Results Attained      and Recoveries)                           $204,371,421

                      Indictments and Informations                   15

                      Successful Criminal Prosecutions               16

                      Civil Settlements/Judgments                     5

                      Contractors Suspended/Debarred                 44

                      Employee Actions Taken                         22
           Overview And            cus On DIG Activities

                   This report, submitted pursuant to the Inspector General Act oj 1978, as
                   amended, chronicles the activities oj the General Services
                   Administration's Office oj Inspector General. It is the twenty-seventh
                   Report to the Congress since the appointment oJ GSA 's first Inspector
                   General.


Overview           Procurement Activities
                   Significant OIG audits and investigations resulted in:

                    <II   Civil fraud settlement agreements resulting in over $16.4 million
                          in recoveries.

                    011   A successful case under the Program Fraud Civil Remedies Act.

                    <II   Convictions of a plastics firm for conspiracy to submit false
                          claims and its former president for making false statements.

                    4>    Improvements in controls over contract administration.

                   Agency Operations
                   In a series of internal reviews, we advised management of the need to:

                    011   Develop policies and procedures for preparing tool descriptions
                          for the supply catalog.

                    ..    Strengthen controls over receivables by improving the billing
                          procedures.

                    ..    Improve controls over bills sent to contractors for freight and
                          passenger services.

                    •     Tighten the controls for surplus property used by State agencies.

                    •     Improve the procedures for collecting unauthorized gasoline
                          purchases.

                   Prevention Activities
                   OIG prevention activities included:

                    ..    Preaward reviews of 220 contracts with an estimated value of
                          $1.1 billion.

                    •     Integrity awareness briefings of 641 GSA employees.
                    ..    Advisory reviews of 18 lease proposals aimed at heading off
                          potential problems.
        Overview And Focus                    OIG Activities

                In our last report we identified several areas where we were focusing
Focus           particular attention. The following is an update on those efforts.

                We continue to focus our efforts on helping to ensure the integrity of
                the procurement process by vigorously pursuing procurement fraud,
                defective pricing, and price reduction cases. We have established a
                program bringing an interdisciplinary team approach to cases
                specially identified as having a high potential for fraud. We expect this
                will enable us to respond more qUickly and more effectively than with
                traditional methods and should significantly improve the
                Government's position in criminal and civil fraud prosecutions. These
                efforts have already begun to bear fruit as reflected in civil fraud
                recoveries.

                The issuance of Consolidated Reports as a means for better assessing
                GSA programs is another relatively new OIG initiative. We believe this
                effort is proving extremely worthwhile, and we will be continuing this
                program. By "taking a step back" and consolidating audit fmdings
                over a period of time, these reports enable us to identify recurring
                trends and systemic weaknesses, and thereby give management a
                valuable, long-range perspective on critical program areas. Our third
                Consolidated Report, which will cover overall Agency operations, is
                nearing completion and will be discussed in our next Report to the
                Congress.

                Efforts to ensure that bid-rigging and other anti-competitive practices
                are not present in GSA contracting are still being actively pursued.
                The first major phase of training OIG investigators and auditors in
                this area has been completed. We expect to complete another training
                phase and to initiate proactive investigations during the next reporting
                period.

                We are continuing to implement the concepts of Total Quality
                Management in our organization. During this period, our focus was
                training and education. Improvement teams, which include OIG
                employees at all levels nationwide, have been and continue to be
                established to surface and address quality improvement issues.

                Enhancement of the usefulness and accuracy of financial information
                has always been an objective of our organization. We are continuing
                this effort through our ever-expanding role in implementing the Chief
                Financial Officers Act. We have worked with GSA management and
                with Federal agencies to develop and implement sound financial
                principles. In addition, we have assumed the leadership role in the
                management of auditing GSA's financial statements. The future will
                see us continue to increase our financially-related coverage of Agency
                activities.
Overview And Focus On DIG Activities

         Another area receiving attention is the FTS 2000 system which
         provides Federal agencies with long-distance telecommunications
         services. This is a major contract program, with a potential $25 billion
         cost to the Government over a 10-year period, that has engendered
         considerable attention and concern. Our long-range plans include a
         number of reviews of critical aspects of the system. The early audits
         will focus on billing and financial issues. For example, currently
         contractors' bills must be manually verified. In addition, GSA
         customers cannot ascertain whether their bills are accurate. Audits of
         the FTS 2000 billings and payments have been initiated.
      ble of Contents


                                                                     Page



Overview and Focus on OIG Activities ......................... v

Organization, Staffing, and Budget. ............................ l

Procurement Activities ............................................... 3

Agency Operations ..................................................... 6

Prevention Activities ................................................. 11

Review of Legislation and Regulations ....................... 15

Statistical Summary of OIG Accomplishments .......... 16

Appendices

Appendix I - Significant Audits From Prior Reports ... 23

Appendix II - Audit Report Register .......................... 25

Appendix III - Delinquent Debts ............................... 51

Appendix IV - Reporting Requirements ..................... 52
                   anization, Sta ng, and Bu                               t


                      Pursuant to the Inspector General Act oj 1978, an Office oj Inspector
                      General was established within the General Services Administration on
                      October 1, 1978. As currently confl!Jured, the OIG consists oj six units
                      that function cooperatively to perform the missions legislated by the
                      Congress.

                      The OIG utilizes a functional organizational structure to provide
Organization          nationwide coverage of GSA programs and activities. It consists of:

                       ..    The Office of Audits, a multidisciplinary unit staffed with
                             financial and technical experts who provide comprehensive
                             coverage of GSA operations (internal or management audits) as
                             well as reviews of GSA contractors (external or contract audits).
                             Headquarters directs and coordinates the audit program, which
                             is performed by fourteen field audit offices.

                       <I)   The Office of Investigations, an investigative unit that manages
                             a nationwide program to prevent and detect illegal and/or
                             improper activities involving GSA programs, operations, and
                             personnel. Headquarters coordinates and oversees the
                             investigative activity of twelve field investigations offices.

                       ..    The Office of Counsel to the Inspector General, an in-house
                             legal staff that provides legal advice and assistance to all OlG
                             components. These attorneys also represent the OIG in
                             connection with litigation arising out of or affecting OIG
                             operations and prepare OIG comments on proposed legislation.

                       ..    The Office of Administration, a centralized unit that provides
                             data systems support, handles budgetary, administrative, and
                             personnel matters, as well as formulates OIG comments on
                             proposed regulations and GSA policy issuances.

                       <I)   The Quality Management Staff, a newly created staff that
                             provides leadership, promotes the total quality process within all
                             OIG components, and coordinates quality improvement initiatives
                             with other Federal entities.

                       '"    The Internal Evaluation Staff, an analytical unit reporting
                             directly to the Inspector General that plans and directs an in-
                             house assessment program, including field office appraisals and
                             sensitive reviews of OIG operations.

                      The OlG is headquartered in Washington, DC, at GSA's Central Office
Office Locations      building. Field audit or investigations offices are maintained in
                      Boston, New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort
                      Worth, San Francisco, Auburn, Cleveland, Los Angeles, and
                      Washington, DC.
            Organization, Sta ng, and Budget

                      The GIG started Fiscal Year 1992 with a total on-board strength of
Staffing and Budget   438 full-time employees. Permanent staffing included 236 auditors,
                      91 investigators, and 8 attorneys.

                      The GIG's approved Fiscal Year 1992 budget is approximately
                      $36.5 million.
                  Procurement Activities

                    The GSA is responsible jor providing space jor almost 1 million Federal
                    employees. GSA, therejore, acquires buildings and sites, constructs
                   facilities, and leases space as well as contracts jor repairs, alterations,
                    maintenance, and protection oj Government-controlled space. GSA also
                    operates a Government-wide service and supply system. To meet the
                    needs of customer agencies, GSA contracts for billions oj dollars worth
                    of equipment, supplies, materials, and services each year. Our job is to
                    review these procurements on both a preaward and postaward basis to
                    ensure that the taxpayers' interests are adequately protected. We
                    review approximately 500 oj GSA's estimated 6,700 contracts each
                    year.


Significant DIG    $15.1 Million Civil Settlement
                   In February 1992, a supplier of computer equipment entered into a
Accomplishments    civil settlement agreement with the Government to pay $15.1 million
                   to settle its potential civil liability under the False Claims Act. This is
                   the largest civil settlement ever received in connection with a single
                   case initiated by the GSA OIG.

                   The joint audit and investigation determined that the company
                   violated the False Claims Act by failing to disclose to GSA discounts it
                   offered on its computer equipment and maintenance service. The
                   investigators found that the company had granted maintenance
                   discounts to commercial customers. GSA contracting officers relied on
                   the information provided by the company and, as a result, awarded
                   the contracts at higher prices than would have been negotiated had
                   there been proper disclosure. Also, we determined that the company
                   sold a significant quantity of refurbished computer equipment under
                   the contract that it represented as new equipment.

                   The settlement resulted from a 3-year investigation by the GSA OIG.
                   Department of Justice Civil Division, and the U.S. Attorney's Office for
                   the Northern District of Texas.

                   Program Fraud Civil Remedies Act
                   In February 1992, an office equipment firm and its owner agreed in a
                   settlement to pay the Government $45,000 under the Program Fraud
                   Civil Remedies Act. Under the Act, Federal agenCies may. with
                   Department of Justice approval, institute administrative proceedings
                   to recover damages and penalties from a person or entity that
                   presents false claims or makes false statements that cause damage to
                   the Government of up to $150,000. Agencies can recover double the
                   Government's damages and penalties of up to $5.000 per violation.

                   The OIG initiated actions under the Act after a GSA employee reported
                   that the prices in catalogs provided to Federal agencies by the firm
                   differed from the negotiated contract terms. We found that the
                   company had overcharged customer agenCies for office equipment and
ocurement Activities


related items by providing catalogs that overstated prices negotiated
and awarded under the contract. Mter the termination of the contract,
the firm continued to contact Federal agencies and attempted to sell
equipment using other GSA contractor's numbers.

In addition to the settlement, the owner, the firm, and two affiliated
companies agreed to voluntary debarment for 18 months, thereby
precluding them from participating in the Federal procurement
process.

$1,392,716 Civil Agreements
In addition to the $15.1 million civil settlement noted above, the
Government entered into two civil settlement agreements, totaling
$1,392,716, with Federal suppliers. The settlement agreements were
negotiated by representatives of the Department of Justice and the
GSAOIG.

Under the terms of the first agreement, an office furniture
manufacturer paid the Government $1,257,716 to settle its potential
civil fraud liability under the False Claims Act. The firm's contracts
with GSA included a provision whereby it would charge the
Government for the exact cost of shipping its products to Federal
customers. A joint audit and investigation revealed that the firm
obtained a shipping discount from a freight carrier and asked the
company not to include the discount on its freight bills. Instead, the
freight company gave the furniture manufacturer rebate checks at the
end of the month. The firm never informed the Government of its
arrangement and continued to submit to GSA the freight company's
bills, which no longer reflected the exact shipping costs. As a result of
this arrangement, the Government overpaid the furniture company for
the costs of delivering the furniture.

The second agreement prOvided that two computer equipment
suppliers would pay the Government a total of $135,000 to settle their
potential civil fraud liability. The agreement stemmed from an OIG
review which disclosed that one of the companies used sales data
from the related company to help meet the commerciality
requirements for a contract. However, the firm did not disclose to GSA
that the related company offered significantly larger discounts to
commercial customers than those offered to GSA.

Conspiracy Conviction
A plastics firm was placed on 5 years unsupervised probation and
prohibited from conducting business with the Government after
pleading guilty to conspiracy to submit false claims. In addition, in
February 1992 the former president of the company pled guilty to
making false statements. His sentencing is scheduled for April 1992.
Procurement Activities

 An OIG investigation was initiated after a GSA contracting officer
 alleged that the firm had provided the Government with plastic bags
 that failed to conform to the requirements and specifications of its
 GSA contract, valued at over $4,500,000. The contract required the
 company to test the plastic bags prior to shipment to the Government
 and to certify that these bags met all contract requirements. The
 investigation revealed that the company did not perform the required
 testing prior to releasing the bags for shipment. The president then
 falsely certified to the Government that the bags had been tested.
 False certifications applied to more than $500,000 in shipments to
 GSA depots.

 The investigation also disclosed that the firm billed GSA for full
 delivery of orders of the plastic bags. However, only partial orders had
 been received and certified as complying with contract terms. The
 fraudulent claims totaled over $230,000.

 Contracts Branch
 The OIG completed a regional review of contract administration for
 automated information systems. During Fiscal Year 1991, it was
 expected that task orders in excess of $20 million would be issued.

 The review disclosed that internal controls were weak in that agencies'
 procurement requests were not logged in upon receipt, monitored
 during the processing stages, and annotated as being completed.
 Consequently, a contractor's claim was misplaced for 7 months and
 an incoming order was misfiled, found 9 months later, and returned
 to the requester with no action.

 The review also found procurement deficiencies in that contracting
 officers were issuing orders without having the delegated authority,
 and case files did not contain adequate documentation to support the
 need for the orders or the prices paid. Both of these errors resulted in
 noncompliance with established procurement regulations.

 The December 24, 1991 report made six recommendations to the
 Assistant Regional Administrator, Information Resources Management
 Service, to correct identified deficiencies. These included
 recommendations to:

  ..   Set up control procedures to identify, record, and track
       transactions from receipt until completion by the branch.
  ..   Permit only administrative contracting officers with delegated
       authority to issue task orders.
  ..   Follow the applicable regulations and properly prepare
       procurement documents.
 Responsive action plans were provided for implementing the report
 recommendations.
                  A                    erations

                  The General Services Administration is a central management agency
                  that sets Federal policy in such areas as Federal procurement, real
                  property management, and telecommunications. GSA also manages
                  diversified Government operations involving buildings management,
                  supply facilities, real and personal property disposals and sales, data
                  processing, and motor vehicle and travel management. In addition, GSA
                  manages over 115 accountingfunds and provides cross-servicing
                  supportfor client agencies. The OIG performed 90 internal audits this
                  period.


Significant DIG   Supply Catalog Operations
                  The OIG evaluated the operations of the technical research office
Accomplishments   responsible for preparing and updating purchase descriptions for
                  tools carried in the GSA supply catalog. The research office manages
                  its data concerning tools by using an automated data system.

                  We found that many of the catalog descriptions for tools had not been
                  developed and updated accurately and conSistently. Supply catalogers
                  did not always develop or update the descriptions, the documentation
                  to support actions taken, and the types of information shown on the
                  tool deSCriptions in a correct and uniform manner. Current and
                  accurate descriptions are essential for procuring the correct items.

                  Our review of the research office's weekly productivity reports showed
                  that the production claimed by its employees was not always
                  accurate. Reliable productivity statistics are essential because they
                  are the primary basis for the individual cataloger's performance
                  evaluation and are used to rate the office's accomplishments.

                  Finally, requested changes to the system data by the research office
                  were not satisfactorily addressed in a timely manner. Since the
                  system data is the primary source of information on what items are
                  available to customers and how they can be obtained, it is important
                  for this information to be accurate. We believe the causes of
                  unresolved requests to change the system data should be resolved
                  and appropriate action taken to expedite the resolution of outstanding
                  system change requests.

                  The December 19, 1991 report proposed two recommendations to the
                  Regional Administrator to:

                   e   Develop poliCies and procedures to specifY what data should be
                       shown on the purchase descriptions and what supporting
                       documentation should be maintained, and to review a sample of
                       supply catalogers' descriptions to ensure adherence to
                       established procedures.
Agency               erations

 •   Develop procedures to ensure that production records are
     accurate.

Responsive action plans were provided for implementing the report
recommendations.

Theft of Government Properly
A joint GSA GIG and Federal Protective Service investigation resulted
in the convictions of three members of a local labor union and a
former GSA employee for mail fraud and for giving and receiving
gratuities. An investigation was initiated following allegations that a
stolen vehicle ring and a vehicle substitution scheme had been
operating out of leased space at a GSA depot and involved at least
three Government vehicles.

The investigators found that a former GSA employee had received two
vehicles in exchange for permitting car theft. an insurance fraud
scheme. and a vehicle substitution scheme to proceed in space GSA
leased to a movie company for a television series. The labor union
members. who were responsible for purchasing vehicles used in
spectacular crash and explosion sequences, stole Government vehicles
and destroyed them for the television series rather than destroy the
vehicles donated for that purpose.

On February 24. 1992. one individual pled guilty to charges of mail
fraud. On February 28, 1992. the second and third individuals were
convicted of mail fraud and the third individual convicted of giving a
gratuity. Also. the former GSA employee had been convicted on
September 28. 1990 on two counts of receiving a gratuity.

Sentencing is scheduled for May 1892.

Controls Over Receivables
The OIG evaluated controls over the billing and collecting of
delinquent Federal automated data processing accounts. Our review
identified needed improvements to the billing procedures and financial
computer programs.

We found that GSA billing documents sent to the customer did not
always identifY the services provided. Improved billing documents.
which would include a description of services rendered such as labor,
travel. fee, or other charges, could enhance the timely receipt of
monies due the Government.

We also found that customer records for paid bills were being purged
and were no longer accessible which resulted in insufficient
supporting documentation for future research. Also, as a result of
program problems, the finance division could not retrieve old
Agency Operations

delinquent bills in suspense accounts or automatically update
multiple bills for the same customer. Revisions to this computer
program would facilitate customer account administration.

In addition. the address codes in the system were not always
accurate. The input codes used for a billing address program did not
agree with address codes on the output billing report. As a result. the
billing attachment could be sent to the wrong address, causing a
payment delay.

The October 18, 1991 report made two recommendations to the
Comptroller and one recommendation to the Commissioner,
Information Resources Management Service. These included
recommendations that:

 <I>   Revisions be made to the billing programs which would provide
       the user with a document which provides a description of
       services rendered.
 co    A program be developed to provide historical customer contact
       records on accessible microfiche, obtain all the oldest delinquent
       bills, and allow updates to multiple bills automatically for the
       same customer.
Responsive action plans were provided for implementing the report
recommendations.

Transportation Audit Program
GSA's Office of Transportation Audits is responsible for auditing
transportation bills paid by all Government agencies for both freight
and passenger services worldwide, and recovering carrier overcharges
identified by these audits. Currently, contracts are awarded with
private sector firms to perform the majority of these audits.

The OIG completed a review of the controls established by the Office
of Transportation Audits and concluded that the document controls
over bills that are sent to contractors need to be strengthened. We
found that statistics on the exact number of bills, copies of the bills,
or data from each bill are not collected before sending the bills to the
audit firms. In addition, the contractors did not have a document
control system nor were they provided with procedures for controlling
these documents. As a result, there is no assurance that each bill,
which represents a potential claim for overcharges, is accounted for
and reviewed.

We also reported that the quality control program for the auditing of
these bills was initiated by the Office, but findings are not being used
to monitor contractor performance. There was no measurable
standard to evaluate the quality of the contract work being performed.
A                      erations

The December 1991 report made four recommendations to the
Commissioner, Federal Supply Service. These included
recommendations to:
 <&    Review alternative document control systems and identifY and
       implement a cost-effective system to ensure accountability and
       control.
 <&    Reinstitute a quality assurance program with measurable
       performance standards for contractors, with tests of performance
       and follow-up action with contractors.
The Commissioner, Federal Supply Service, agreed with the recom-
mendations in the report. The audit is still in the resolution process.

Federal Surplus Program
Public Law 94-519 assigns GSA responsibility for administering the
Federal Surplus Property Donation Program. Under the program,
States are eligible to receive Federal surplus personal property and
donate it to qualified public and private nonprofit organizations. Each
State establishes an independent agency for surplus property to
administer the program at the State level.

This period, the OIG completed a regional evaluation of such a State
agency for surplus property. The review revealed the controls that
ensure the State agency is complying with applicable regulations
needed improvements in several areas. The State agency performed
infrequent utilization inspections of Federal surplus passenger
vehicles and of items valued at more than $3,000. These inspections
ensure against the potential misuse of donated property. Also, donee
eligibility files were found not to be current and accurate. As a result,
there was limited assurance that property had been donated solely to
eligible public agenCies and nonprofit organizations. Finally. seven
donees had not placed fourteen donated items into use within 1 year,
as required, of receipt of property.

The report included three recommendations to the Regional
Administrator recommending that the Federal Supply Service Bureau:
 OlD   Emphasize the importance of utilization inspections to State
       agency officials and monitor the progress of inspection efforts as
       part of the biannual review of the State agency.
 ..    Advise the State agency to maintain donee eligibility files on a
       current basis.
 (!I   Request that the State agency takes action to recover the items
       not put into use.
The Regional Administrator agreed with the recommendations in the
report. The audit is still in the resolution process.
Agency                 erations


Fleet Management
This period, the OIG reviewed the operations at two Fleet Management
Centers. We concluded that, while the centers were generally
successful in satisfYing customer requirements and operated in
accordance with applicable policies and procedures, improvements
were needed in several areas.

In one center, we found that 40 percent of all credit card gasoline
purchases were at full service prices or for premium grade gasoline,
although agencies are required to use self service pumps and regular
grade gasoline. The center could recover about $35,000 by billing
agencies which continue to overlook the policies on the use of self
service pumps and regular grade gasoline. In addition, we estimated
that the annual difference between the two services and gasoline
purchases could total $360,000 for the region.

In the other center, we found that controls over vehicle credit cards
needed strengthening. There was minimal separation of duties in the
credit card program. The center did not always obtain the required
explanation concerning lost or stolen credit cards before replacing
cards, issued new credit cards before broken cards were returned,
and inadequately monitored stolen or lost credit cards. In both
centers, security over Government vehicles was lacking because
unattended vehicles were not locked, thus increasing the
Government's risk of theft or damage.

Our two reports in January 1992 proposed several recommendations
to the Regional Administrators to:

 Ii>   Clarify the policy on billing customer agencies for unauthorized
       gasoline purchases; and follow the policy for documenting,
       notifYing, and billing customer agencies when a pattern of
       continuous use of full service pumps and premium grade
       gasoline purchases exists.

 01>   Implement procedures to ensure that key credit card duties are
       separated, full explanations of the circumstances regarding lost
       or stolen credit cards are obtained prior to replacement, and
       broken cards are returned before issuing replacement cards; and
       establish written procedures to ensure consistent, documented
       evaluation of charges against lost or stolen credit cards.

 ..    Ensure that employees lock unattended vehicles.

The Regional Administrators agreed with the recommendations in the
report. The audit is still in the resolution process.
                       Prevention Activities


                       In addition to detecting problems in GSA operations, the OIG is
                       responsiblejor initiating actions to preventjraud, waste, and abuse
                       and to promote economy and eJficiency.

                       The ~iG's preaward audit program provides information to contracting
Significant Preaward   officers for use in negotiating contracts. The pre-decisional, advisory
Audits                 nature of preaward audits distinguishes them from other audits. This
                       period, the OIG performed preaward audits of 220 contracts with an
                       estimated value of $1.1 billion. The audit reports contained over
                       $173 million in financial recommendations.

                       Multiple Award Schedule Contracts
                       This period, the OIG performed four significant audits involving
                       multiple award schedule contracts. Estimated Government-wide sales
                       under these contracts total over $271.5 million. Based on our
                       findings, the auditors recommended that over $43.1 million in funds
                       be put to better use.

                       The OIG evaluated cost and pricing proposals submitted in response
                       to three GSA solicitations: one for security filing cabinets, safes, and
                       vault doors; and two for furniture. The audits advised the contracting
                       officers that the cost or pricing data in the proposals were overstated
                       or unallowable in several cost categories. Audit adjustments were
                       made to reduce proposed rates where appropriate, and unsupported
                       costs were identified for follow-up inquiries by the contracting officer.

                       The OIG also evaluated discount schedule and marketing data
                       submitted in response to a GSA solicitation for industrial furniture.
                       We advised the contracting officer that the firm offered higher
                       discounts to commercial customers and overstated the freight cost in
                       the offer.

                       Other Contracts
                       The OIG performed three significant audits involving a termination
                       settlement proposal, a claim for increased costs, and an architectural
                       and engineering services proposal. The three audits reviewed proposed
                       amounts of over $32.8 million and recommended adjustments of over
                       $28.2 million.

                        ..   The OIG evaluated a settlement proposal submitted in response
                             to the termination of a contract for computer terminal systems
                             and software. The audit report advised the contracting officer
                             that substantial dollar amounts contained in the firm's proposal
                             were unallowable by regulations, unallocable to the contract, and
                             unsupported or overstated. Based on these findings, the auditors
                             recommended adjustments in the following categories: hardware
                          Prevention Activities

                                and software expenses, maintenance costs, overhead rates,
                                contingency fee expenses, and general and administrative
                                expenses.
                           ..   The OIG audited a claim for increased costs related to the
                                restoration and renovation of a Federal building. The contractor
                                alleged that Government-caused delays resulted in the increased
                                costs. The audit report advised the contracting officer that costs
                                contained in the claim were overstated and unallowable and
                                recommended an adjustment to the claimed amount. Most of the
                                adjustments were made in labor costs, overhead allocations,
                                subcontractor costs, and profit.
                           ..   The OIG evaluated a pricing proposal submitted for architectural
                                and engineering services related to the construction of a Federal
                                building. The audit report advised the contracting officer that
                                certain proposed costs for overhead, direct labor, and other direct
                                costs were overstated or unsupported. Based on these findings,
                                the auditors recommended reductions to the proposed contract
                                amount.
                          The OIG furnishes GSA management with extensive technical
Federal Managers'         assistance and advice relative to the Federal Managers' Financial
Financial Integrity Act   Integrity Act that requires GSA to provide assurance that Agency
                          resources are protected from fraud, waste, mismanagement, and
Reviews                   misappropriation. This period, the OlG reviewed GSA's efforts in
                          carrying out Section 2 of the Act, including evaluations of
                          management's Fiscal Year 1991 assurance statements. We advised
                          management that, while the majority of the assurance statements
                          were complete, and appropriately reported control weaknesses, a few
                          statements were not reliable. We noted that four assurance
                          statements did not completely report control weaknesses and that ten
                          program components' assessments of risks were inappropriate. The
                          OlG also reviewed GSA's efforts in carrying out Section 4 of the Act by
                          evaluating the Fiscal Year 1991 assurance statement concerning
                          financial management systems. We advised management that the
                          statement was complete and the information presented was reliable.

                          Integrity Awareness Briefings comprise the ~IG's primary vehicle for
Integrity wareness        educating employees on their responsibilities for the prevention of
                          fraud and abuse, and for reinforcing employees' roles in helping to
                          ensure the integrity of Agency operations. Several significant OIG
                          accomplishments reported this period resulted from allegations
                          received from GSA employees.

                          This period, we presented 25 briefings which were attended by 641
                          Central Office and regional employees. These briefings explain the
                          statutory mission of the OlG and the methods available for reporting
                          suspected instances of wrongdoing. In addition, through case studies
                          and slides, the briefings expose GSA employees to actual instances of
                          white collar crime in GSA and other Federal agencies.
                   evention Activities


                 The OIG's program for reviewing leases prior to award provides front-
Advisory Lease   end assurance that GSA is adhering to regulations and procedures
Reviews          before awarding selected leases exceeding established thresholds.
                 These reviews, although advisory in nature and only selectively
                 performed due to workload constraints, promote opportunities for
                 economy and efficiency in the leasing area, and the avoidance of
                 problems before they occur.

                 The program achieved the following results during the reporting
                 period:

                     Lease proposals submitted for review ....................... 52

                     Lease proposals reviewed .......................................... 18

                     Lease proposals with deficiencies .............................. 13

                     Lease proposals with no deficiencies ........................... 5


                 Deficiencies identified through OIG advisory lease reviews related to
                 discrepancies between Government estimates and lessor's projections
                 for buildout costs, incorrect occupancy data, the inclusion of
                 alteration costs which should be borne by the occupant, a deficient
                 tax adjustment clause which could have major impact on the
                 Government's cost, incomplete lease files, and inadequate or missing
                 file documentation.

                 The Hotline is another part of our prevention program. It provides an
Hotline          avenue for concerned employees to report suspected wrongdoing.
                 Hotline posters located in GSA-controlled bUildings, as well as Hotline
                 brochures, encourage employees to use the Hotline.

                 During this reporting period, we received 75 Hotline calls and letters.
                 Of these, 64 complaints warranted further action. We also received
                 6 referrals from GAO and 7 referrals from other agencies; 12 of these
                 referrals required further action.

                 The OIG performs independent reviews of implementation actions, on
Implementation   a test basis, to ensure that management corrective actions are being
Reviews          accomplished according to established milestones. This period, the
                 OIG performed 13 implementation reviews. In 10 of these cases,
                 management was successfully implementing the recommendations. In
                 the other 3 instances, recommendations were not being implemented
                 in accordance with the established action plans; we advised
                 management of the need to revise the action plans.
               Prevention Activities

               This period, the OIG conducted two evaluations to satisfy legislative
Legislative    requirements for Fiscal Year 1991 activities. In the first evaluation,
Requirements   the OIG reviewed GSA's Fiscal Year 1991 compliance with Public
               Law 101-121, Department of Interior and Related Agencies
               Appropriations Act (also known as the Byrd Amendment Restrictions
               on Lobbying Activities). We found GSA in compliance with the
               Amendment requirements.

               In the second review, the OIG evaluated GSA's process for following
               the gUidelines established by the Office of Management and Budget
               Circular A-120 and the requirements of Public Law 96-83, as
               prescribed by the Office of Federal Procurement Policy. We found that
               the controls over the appointments of experts and consultants were
               adequate to ensure compliance with requirements, although minor
               improvements were recommended to GSA management.
Review of Legislation and Regu tions

         Pursuant to the Inspector General Act oj 1978, the OIG is required to
         review existing and proposed legislation to determine its impact on the
         prevention and detection oJJraud and abuse in the Agency's programs
         and operations.

         During this period, the OIG reviewed 245 legislative matters and
         III proposed regulations and directives. The OIG provided significant
         comments on the following items:

          10   Amendment to H. R. 1218. Pri.vacyfor Consumers and
               Workers Act. We supported the general proposition that
               individuals should be protected at their workplace from
               unwarranted invasions of privacy. However, we raised concerns
               that the bill may have a number of adverse consequences for
               Federal agencies. We believe requiring the Government to tell a
               prospective employee about potential electronic monitoring
               during the first interview could have a harmful effect on hiring.
               We were concerned that the provisions do not allow prosecutors
               sufficient discretion as to the appropriate time for the release of
               electronic monitoring information during court actions. We
               further noted that highly intrusive surveillance should only be
               carried out by Government law enforcement personnel trained to
               recognize and investigate criminal activity. We also suggested
               that the proposed bill should clearly define law enforcement
               agenCies and include Inspector General offices.
          10   FSS Acquisition Letter. The Multiple Award Schedule. Items
               to Stock Program. We opposed the portion of the Acquisition
               Letter that advocates placing multiple award schedule items at
               GSA Distribution Centers. We do not believe that the customer
               will receive better pricing than that available under the multiple
               award schedule. We believe that the discounts obtained from the
               contractor through the schedule would be negated due to the
               markup the Distribution Center would put on these items before
               customers could make a purchase.

          ..   Draft GSA Order 2800.1C. Preaward Clearance Require-
               ments and Procedures. We agreed with the proposed policy in
               the Order which revises the preaward clearance requirements
               and procedures for GSA procurement actions. We stated that the
               changes update the Order by more accurately reflecting the types
               of contracting used by the Agency. We commented that
               clarification was needed on whether the threshold applies to
               annual sales or total estimated contract sales for multi-year
               contracts.
       Statistical Summa                  of OIG Accomplishmen

                             Audit Reports Issued
                             The OlG issued 331 audit reports, including 3 audits performed by
                             the alG that were issued to other agencies and 24 audits performed
                             for the alG by another agency. The 331 reports contained financial
                             recommendations totaling $175,020,463, including $174,247,493 in
                             recommendations that funds be put to better use and $772,970 in
                             questioned costs. Due to GSA's mission of procuring supplies and
                             services for the Government, most of the recommendations that funds
                             be put to better use were applicable to funds other agencies would
                             expend under GSA's Government-wide contracts.

                             Management Decisions on Audit Reports
                             Table 1 summarizes the status of the universe of audits requiring
                             management decisions during this period, as well as the status of
                             those audits as of March 31, 1992. Sixteen reports more than
                             6 months old were awaiting management decisions as of March 31,
                             1992; but all of them were preaward audits, which are not subject to
                             the 6 month management decision requirement. Table 1 does not
                             include 3 reports issued to other agencies this period and 23 reports
                             excluded from the management decision process because they pertain
                             to ongoing investigations.


               Table 1. Management Decisions on OIG Audits
                                                          Reports with             Total
                                              No. of        Financial            Financial
                                             Reports    Recommendations      Recommendations

For which no management decision
had been made as of 10/1/91
  Less than 6 months old                       155            105              $121,632,428
  More than 6 months old                        25             21                 9,153,707
Reports issued this period                     328            203               175,020,463
TOTAL                                          508            329             $305,806,598
For which a management decision
was made during the reporting
period
  Issued prior periods                         164            III              $125,259,218
  Issued current period                        213            112              ----'Z§, 81 ~~88~
TOTAL                                          377            223             $204,072,100
For which no management decision
had been made as of 3/31/92
  Less than 6 months old                       115             91              $ 96,207,581
  More than 6 months old                        16             15                 5,526,917
                                                                                ----.-~--~---




TOTAL                                          131            106             $101,734,498
        S tis tical Summa of OIG Accomplishments

                                  Management Decisions on Audit Reports with Financial
                                  Recommendations
                                  Tables 2 and 3 present the audits identified in Table 1 as containing
                                  financial recommendations by category (funds to be put to better use
                                  or questioned costs). Some of the reports contained recommendations
                                  that funds be put to better use as well as questioned costs, and these
                                  reports are therefore included in both Tables 2 and 3.


               Table 2. Management Decisions on OIG Audits with
               Recommendations that Funds be Put To Better Use
                                                             No. of                 Financial
                                                            Reports             Recommendations

For which no management decision had
been made as of 10/1/91
    Less than 6 months old                                      94                 $117,090,158
    More than 6 months old                                      15                    6,222,481
Reports issued this period                                     181                  174.247,493
TOTAL                                                         290                 $297,560,132
  For which a management decision was
  made during the reporting period
    Recommendations agreed to by
    management based on proposed
    • management action                                                            $182,377,675
    • legislative action
    Recommendations not agreed to
    by management                                                                     14,417,229
TOTAL                                                         194                 $196.794,904 *
  For which no management decision had
  been made as of 3/31/92
    Less than 6 months old                                      81                  $ 95,799,452
    More than 6 months old                                      15                     5,526,917
TOTAL                                                           96                $101,326.369

* Includes   $561,141 that management decided to seek that exceeded recommended amounts.
        Statistical Summa                    of OIG Accomplishments


                    Table 3. Management Decisions on OIG
                        Audits with Questioned Costs
                                                No. of           Questioned      Unsupported
                                               Reports             Costs            Costs
For which no management decision
had been made as of 10/1/91
    Less than 6 months old                        12         $ 4.542.270               $-
    More than 6 months old                         6           2.931.226
Reports issued this period                        22             772.970
                                                              -----.-.-

TOTAL                                             40         $8,246,466

For which a management decision
was made during the reporting
period
    Disallowed costs                                          $7.865.801 *             $-
    Costs not disallowed                                          10.937
TOTAL                                             30         $7,876,738**              $-
For which no management decision
had been made as of 3/31/92
    Less than 6 months old                        10          $    408.129             $-
    More than 6 months old
TOTAL                                             10         $    408,129              $-

 ". $2.840,823 of this amount was recovered in civil settlements, as reported in Table 5.
".". Includes $38,401 that management decided to seek that exceeded recommended amounts.


                               Investigative Workload
                               The OIG opened 202 investigative cases and closed 179 cases. In
                               addition to these cases, the OIG received and evaluated 133
                               complaints and allegations from sources other than the Hotline that
                               involved GSA employees and programs. Based upon our analyses of
                               these complaints and allegations, OIG investigations were not
                               warranted.
S tis tical Summa of DIG Accomplishments

                     Referrals
                     The OIG makes criminal referrals to the Department of Justice or
                     other authorities for prosecutive consideration and civil referrals to
                     the Civil Division of the Department of Justice or a U.S. Attorney for
                     litigation consideration. The OIG also makes administrative referrals
                     to GSA officials on cases disclosing nonprosecutable wrongdoing on
                     the part of GSA employees, contractors, or private individuals doing
                     business with the Government.


              Table 4. Summary of OIG Referrals
  Type of Referral                          Cases                      Subjects

   Criminal                                   35                           71
   Civil                                      10                           15
   Administrative                             98                          167
   TOTAL                                     143                          253

                     In addition, the OIG made 2 referrals to another Federal activity for
                     further investigation or other action and 95 referrals to GSA officials
                     for informational purposes only.

                     Actions on OIG Referrals
                     Based on these and prior referrals, 14 cases (27 subjects) were
                     accepted for criminal prosecution and 4 cases (8 subjects) were
                     accepted for civil litigation. Criminal cases originating from OIG
                     referrals resulted in 15 indictments/informations and 16 successful
                     prosecutions. OIG civil referrals resulted in 2 civil fraud complaints
                     and 5 settlements or judgments. Based on GIG administrative
                     referrals, management debarred 15 contractors, suspended 29
                     contractors, and took personnel action against 22 employees.
       Statistical Summary of OIG Accomplishments


                                Monetary Results
                                Table 5 presents the amounts determined to be owed the Government
                                as a result of criminal and civil actions. The amounts do not
                                necessarily reflect actual monetary recoveries.

                                In addition, the OIG identified for recovery $296,496 in money and/or
                                property during the course of its investigations.


                        Table 5. Criminal and Civil Recoveries
                                                   Crimin.al                     Civil
                                                  ---"-----

         Fines and Penalties                        $ 31,500                $    49,450
         Settlements or Judgments                                            16,492,761   *
         Restitutions                                 98,561
         TOTAL                                     $130,001                $16,542,211

* This amount includes $2,840,823reportable pursuant to Section 5(a)(8) of the Inspector General Act as
 management decisions to disallow costs. See Table 3.
App di s
                                                                                  ior Repo

Under the Agency's audit management decision            Safety Concerns
process, GSA's Office of Administration, Office of
Management Controls and Evaluation, is respon-          Period First Reported: October 1, 1990 to March 31,
sible for tracking implementation of audit recom-       1991
mendations after a management decision has              This review revealed that improved controls over
been reached. That office furnished the following       safety and environmental surveys were necessary.
status information.                                     The report contained two recommendations; one
                                                        has been implemented.
Ten audits highlighted in prior Reports to the
Congress have not been fully implemented; all are       The remaining recommendation involves
being implemented in accordance with currently          conducting safety and environmental surveys on
established milestones.                                 leased buildings and monitoring cases until
                                                        deficiencies are resolved. It is scheduled for com-
                                                        pletion in April 1992.
Personal Property Sales
Period First Reported: April 1, 1991 to September 30,
1991                                                    Relocation of Household Goods
This review identified the need for improved
procedures and controls to process personal             Period First Reported: October 1, 1990 to March 31,
property sales proceeds. The report contained two       1991
recommendations; they have not yet been                 This review identified the need to improve the
implemented.                                            operations of the Household Goods Traffic Man-
                                                        agement Program. The report contained five
The first recommendation requires the develop-          recommendations; four have been implemented.
ment of automated procedures to process
personal property sales proceeds. It is scheduled       The remaining recommendation involves requiring
for completion in June 1992. The second recom-          agencies to submit carrier evaluation forms in a
mendation, which involves developing software to        timely manner and establishing procedures to
record sales data on laptop computers, is               furnish performance data to carriers. It is
scheduled for completion in June 1992.                  scheduled for completion in September 1992.


Contingency Planning for Computer Systems               Rental Payments
Period First Reported: October 1, 1990 to March 31,
1991                                                    Period First Reported: April 1, 1990 to September 30,
                                                        1990
This review disclosed the need to improve
contingency plans for computer systems in the           This review showed that improved controls over
event of emergency situations. The report con-          lease payments were necessary. The report
tained one recommendation; it has not yet been          contained nine recommendations; seven have
implemented.                                            been implemented.

This recommendation requires an annual review           The remaining two recommendations, which
of computer system security documentation and a         require the resolution of debits and credits for
report to the head of the appropriate service of        leases and the collection of any lease over-
any noncompliance. It is scheduled for com-             payments, are scheduled for full implementation
pletion by August 1992.                                 in May 1992 and April 1992, respectively.
    Appen               /- S· nificant Au ts From Prior Reports

Rent Exemptions                                        The recommendation, which requires redesign of
                                                       the purchase order form, is scheduled for
Period First Reported: Apru 1, 1990 to September 30,   completion in June 1992.
1990
This review identified the need for better manage-
ment and control of rent exemptions. The report        Multiple Award Schedule Program
contained eight recommendations; seven have
                                                       Period First Reported: October 1, 1988 to March 31,
been implemented.
                                                       1989
The remaining recommendation requires the              This review identified the need for GSA action to
analysis of billings documents and correcting the      improve the identification of the Government's
errors found. Implementation is scheduled for          office machine needs. The report contained five
June 1992.                                             recommendations; four have been implemented.

                                                       The remaining recommendation involves
Fire Safety                                            contracting officer reviews of internal management
Period First Reported: October 1, 1989 to March 31,    records. It is scheduled to be implemented by May
1990                                                   1992.
A series of eight OIG reviews identified the need to
improve the monitoring of fire safety conditions at
Federal facilities. Seven reports were fully           Construction Contract Administration
implemented as of September 30, 1991.                  Period First Reported: Apru 1, 1987 to September 30,
                                                       1987
The remaining report contained eight recom-
mendations; seven have been implemented. The           This review of the construction of a Federal
remaining recommendation requires the perform-         building advised GSA management of the need to
ance of a risk assessment. Full implementation is      enforce the requirements for schedules and price
scheduled for May 1992.                                breakdowns in construction contracts. The OIG
                                                       made 13 recommendations; 12 have been
                                                       implemented.
Purchase Order Form
                                                       The remaining recommendation involves obtaining
Period First Reported: Apru 1, 1989 to September 30,
                                                       a determination from an Architect and
1989
                                                       Engineering Deficiency Committee. The
This review of a purchase order form disclosed         recommendation was originally scheduled for
that the design of the form caused problems with       completion in June 1988, then implementation
data entry, processing, and mailing. The report        was revised to June 1990. The contractor has
contained one recommendation; it has not yet           since filed an appeal with the GSA Board of
been implemented.                                      Contract Appeals.
                 A              'X //- Audit                ort
                                                                                  Financial
                                                                              Recommendations
                                                                           Funds To      Questioned
Date of    Audit                                                           Be Put To    (Unsupported)
Report     Number                           Title                          Better Use       Costs
            (Note: Due to the pre-decisional nature oj some audits, the
           financial recommendations pertaining to these reports are not
            listed in this Appendix.)



PBS        INTERNAL AUDITS
10/08/91   A10323     Audit of the Award and Administration of the
                      Martin Luther King, Jr. Federal Building and U.S.
                      Courthouse, New Construction Project
10/21/91   Al1684     Pre award Lease Review: Melpar BUilding, 7700
                      Arlington Boulevard. Falls Church. VA 22042.
                      Lease Number GS-llB-10133
11/05/91   A21510      Pre award Lease Review: U.S. Attorney's Office,
                       Cleveland. Ohio. Lease Number GS-05B-15282
11/08/91   A10213      Postaward Lease Audit of One Congress Street,
                       Boston, MA, Lease Number GS-OIB(PEL)-03678
                       NEG.
11/20/91   Al1688      Preaward Lease Review: Prince George Center II.
                       3700 East West Highway. Hyattsville. MD 20782.
                       Lease Number GS-llB-10258
11/21/91   A21803      Preaward Lease Audit: 9221 Ward Parkway,
                       Kansas City. Missouri, Lease Number GS-06P-
                       19922
11/21/91   A21804      Preaward Lease Audit: 4370 West 109th Street,
                       Overland Park, Kansas, Lease Number GS-06P-
                       19923
11/26/91   A11066      Postaward Audit of Supplemental Lease Agreement
                       Number 15, Lease Number GS-06P-70 165,
                       2400 West 75th Street, Prairie Village, Kansas
11/29/91   A23006      Preaward Lease Review: Jefferson Plaza I and II,
                       1411-1421 Jefferson Davis Highway, Arlington, VA
                       22202, Lease Number GS-I1B-20605
12/09/91   A10655     Audit of GSA's PhYSical Security Survey Program
12/13/91   A00866      Report on the Review of the Administration of GSA
                       Elevator Maintenance Contracts
12/13/91   A20314      Pre award Lease Review: U.S. Fish and Wildlife
                       Service, Lease Number GS-OIB(PEL)-03754 NEG.
12/27/91   A10866      Postaward Lease Review: U.S. Navy, Indianapolis,                   $150,584
                       IN, Lease No. GS-05B-14915
                A endix //- Audit Report
                                                                               Financial
                                                                           Recommendations
                                                                        Funds To      Questioned
Date of    Audit                                                        Be Put To    (Unsupported)
Report     Number                        Title                          Better Use       Costs
01/10/92   AI0818   Review of the Chicago Alterations Works Group,                        $2,206
                    Region 5
01/17/92   AlO058   Audit of Buildings Management Houston Field
                    Office, Region 7
01/21/92   A20920   Audit of Proposed Lease Number GS-03B-l 0277,
                    World Trade Center, 101 East Main Street,
                    Norfolk, VA
01/28/92   A10322   Review of the U.S. Courthouse Buildings Manage-
                    ment Field Office, Region 2
01/30/92   A20926   Audit of Proposed Lease Number GS-03B-20064,
                    200 Saint Paul Place, Baltimore, Maryland
01/31/92   A22138   Preaward Lease Review: Colorado and Santa Fe
                    Partners III, Solicitation Number 91-03
02/13/92   A22446   Preaward Lease Audit: 71 Stevenson Street, San
                    Francisco, California, Lease Number GS-09B-
                    91267
02/19/92   A20931   Audit of Proposed Lease Number GS-03B-20065,
                    1125 Berkshire Boulevard, Wyomissing,
                    Pennsylvania
02/25/92   A20653   Preaward Lease Review: One Pierrepont Plaza,
                    Brooklyn, NY, Lease Number GS-02B-22622
02/28/92   A23043   Preaward Lease Review: 800 North Capitol Street,
                    Washington, D.C., Lease Number GS-llB-20672
03/06/92   A23022   Pre award Lease Audit: Columbia Plaza Office
                    BUilding, 2401 E Street, NW, Washington, DC,
                    Lease Number GS-llB-10187
03/12/92   A10518   Audit of Controls Over Lease Payments in Region 3                     $1,450
03/12/92   A20612   Audit of Administration of Concessions Contracts
03/18/92   A20659   Pre award Lease Review: 181 South Franklin
                    Avenue, Valley Stream, New York, Lease Number
                    GS-02B-22023
03/23/92   A21225   Audit of Preaward Lease: FAA Building, College
                    Park, GA, Lease Number GS-04B-30123
03/25/92   A1l666   Postaward Lease Review of the Comsat Building,                        $1,016
                    Lease Number GS-l1B-60249
03/30/92   A21220   Audit of Preaward Lease: Internal Revenue Service
                    Building, Covington, Kentucky, Lease Number
                    GS-04B-31332
                A endix II-Au t Report Regis r
                                                                                Financial
                                                                            Recommendations
                                                                         Funds To      Questioned
Date of    Audit                                                         Be Put To    (Unsupported)
Report     Number                        Title                           Better Use      Costs

PBS        CONTRACT AUDITS
10/02/91   A11064   Preaward Audit of Architect and Engineering
                    Services Contract: Sverdrup Corporation,
                    Solicitation Number GS05P91 GBC0039
10/03/91   A11428   Pre award Audit of Change Order Proposal: Scott
                    Company of California, Subcontractor to Tutor-
                    Saliba Corporation, Contract Number GS-09P-88-
                    KTC-0232
10/04/91   A00665   Pre award Audit of Claim for Increased Costs: Nico
                    Construction Company, Inc., Contract Number
                    GS11P86MKC7276
10/04/91   A10647   Pre award Audit of Architect and Engineering
                    Services Contract: Charles Warterfield, Architect,
                    Inc., Contract Number GS-04P-89-EXC-0103
10/07/91   A10877   Preaward Audit of Architect and Engineering
                    Services Contract: Michaud, Cooley, Erickson &
                    Associates,    Inc.,   Solicitation   Number
                    GS05P91 GBD0091
10/08/91   A10381   Pre award Audit of Supplemental Architect and
                    Engineering Services Contract: Ebasco Services,
                    Incorporated, Solicitation Number GS-02P91-
                    CUD0029 NEG.
10/08/91   A11655   Report on Audit of Proposal for Initial Pricing of
                    Task Order #8 Under Contract Number GS-11P88-
                    EGC0192, Gilbane Building Company, Providence,
                    Rhode Island
10/09/91   A11406   Audit of Claim for Increased Costs: Robert M. Kaya
                    Builders, Inc., Contract Number GS-09P-87-KTC-
                    0102
10/09/91   A1l411   Preaward Audit of Change Order Proposal:
                    Superior Air Handling Corporation, Contract
                    Number GS09P88KTC0232
10/15/91   A11063   Preaward Audit of Architect and Engineering
                    Services Contract: Gould Evans Architects, P.C.,
                    Solicitation Number GS06P91 GYD0025
10/17/91   Al1426   Preaward Audit of Architect and Engineering
                    Services Contract: L.R. Nelson Consulting
                    Engineers, Solicitation Number GS-09P-90-KTD-
                    0152
                Appendix //- Audit Report Register
                                                                                  Financial
                                                                              Recommendations
                                                                           Funds To      Questioned
Date of    Audit                                                           Be Put To    (Unsupported)
Report     Number                         Title                            Better Use       Costs
10/18/91   AI0875   Preaward Audit of Architect and Engineering
                    Services Contract: Roger Johnson-Richard Smith
                    Architects, Inc., Solicitation Number GS05P91-
                    GBD0086
10/18/91   A10880   Preaward Audit of Architect and Engineering
                    Services Contract: Space Management Con-
                    sultants, Inc., Consultant to Leonard Parker
                    Associates. Architects, Inc., Solicitation Number
                    GS05P91 GBC0039
10/18/91   AI1424   Pre award Audit of Architect and Engineering
                    Services Contract: JBA Consulting Engineers, Inc.,
                    Solicitation Number GS-09P-90-KTD-0152
10/22/91   A10388   Pre award Audit of Cost or Pricing Data: Gisbert
                    Construction Company, Solicitation Number GS-
                    02P-91-CUC-0085 NEG.
10/22/91   A10692   Preaward Audit of Architect and Engineering
                    Services Contract: Barge, Waggoner, Sumner and
                    Cannon, Inc., Contract Number GS-04P-91-EXC-
                    0027
10/23/91   A10378   Preaward Audit of Architect and Engineering
                    Services Contract: Pei Cobb Freed and Partners,
                    Architects, Solicitation Number GS-02P-91-CUC-
                    0030 NEG.
10/23/91   AI0384   Preaward Audit of Architect and Engineering
                    Services Contract: Hanna/Olin Ltd, Solicitation
                    Number GS-02P-091-CUC-0030(NEG)
10/24/91   AI0883   Pre award Audit of Architect and Engineering
                    Services Contract: Ghafari Associates, Inc.,
                    Solicitation Number GS05P91 GBC0066
10/24/91   A11418   Pre award Audit of Architect and Engineering
                    Services Contract: Kittrell, Garlock and Associates,
                    Solicitation Number GS-09P-90-KTD-0152
10/24/91   AI1425   Preaward Audit of Architect and Engineering
                    Services Contract: Drottar-Priniski Associates
                    Consulting Engineers, Inc., Solicitation Number
                    GS-09P-90-KTD-O 152
10/24/91   AI1431   Audit of Tax Entitlement Lease Number GS-09B-
                    83349, 1650 Mission Street, San Francisco,
                    California, Region 9
10/25/91   AI0882   Pre award Audit of Architect and Engineering
                    Services Contract: Ghafari Associates, Inc.,
                    Solicitation Number GS05P91GBC0065
                A                11- Audit Report R ister
                                                                                 Financial
                                                                             Recommendations
                                                                          Funds To      Questioned
Date of    Audit                                                          Be Put To    (Unsupported)
Report     Number                         Title                           Better Use       Costs
10/25/91   A1l663   Audit of Claim for Increased Costs: M.C. Dean
                    Electrical Contracting, Inc., Subcontractor to
                    Chas. Riddle Associates, Inc., Contract Number
                    GS-I1P90MKC01l6
10/28/91   A10256   Preaward Audit of Architect and Engineering
                    Services Contract: Jeter, Cook & Jepson
                    Architects, Inc., Solicitation Number GS-OIP-91-
                    BZC-0022
10/29/91   A20302   Preaward Audit of Architect and Engineering
                    Services Contract: Green International Affiliates,
                    Inc., Solicitation Number GS-OIP-91-BZD-0125
10/29/91   A22403   Pre award Audit of Change Order Proposal:
                    Johnson Controls, Inc., Subcontractor to Tutor-
                    Saliba Corporation, Contract Number GS-09P-88-
                    KTC-0232
10/30/91   AI0255   Preaward Audit of Lease Escalation Proposal: The
                    Equitable Life Assurance Society of the United
                    States. Lease Number GS-01B(PRA)-02828 NEG.
10/30/91   A11679   Preaward Audit of Architect and Engineering
                    Services Contract: Oehrlein & Associates
                    Architects, Contract Number GSI1P91EGD0114
10/31/91   AI0257   Pre award Audit of Architect and Engineering
                    Services Contract: Syska & Hennessy, Solicitation
                    Number GS-01P-91-BZC-0022
10/31/91   A11646   Audit of Claim for Increased Costs: John J. Kirlin,
                    Inc., Subcontractor to Nico Construction
                    Company, Inc., Contract Number GS-11P86-
                    MKC7276
11/04/91   AI0379   Pre award Audit of Architect and Engineering
                    Services Contract: Gruzen, Samton, Steinglass,
                    Solicitation Number GS-02P-091-CUC-0030 NEG.
11/04/91   A22407   Pre award Audit of Change Order Proposal: Dover
                    Elevator Company, Subcontractor to Tutor-Saliba
                    Corporation, Contract Number GS-09P-88-KTC-
                    0232
11/07/91   All061   Audit of Labor and Overhead Rates: Hellmuth,
                    Obata & Kassabaum, Inc., Contract Number
                    GS02P91 CUC-0058
11/08/91   A1l412   Pre award Audit of Architect and Engineering
                    Services Contract: Hummel, Lamarche &
                    Hunsucker, Architects, P.A., Solicitation Number
                    GS-09P-91-KTC-0052
                        ndix II-Au                      port Re                 r
                                                                                 Financial
                                                                             Recommendations
                                                                          Funds To      Questioned
Date of    A.udit                                                         Be Put To    (Unsupported)
Report     Number                         Title                           Better Use       Costs
11/08/91   A11413   Preaward Audit of Architect and Engineering
                    Services Contract: Chen-Northern, Inc., Solici-
                    tation Number GS-09P-91-KTC-0052
11/08/91   A11414   Preaward Audit of Architect and Engineering
                    Services Contract: Engineering Inc., Solicitation
                    Number GS-09P-91-KTC-0052
11/08/91   A11682   Preaward Audit of Architect and Engineering
                    Services Contract: Sorg Associates, Solicitation
                    Number GS-llP-91-EGC-0119
11/12/91   A10881   Preaward Audit of Architect and Engineering
                    Services Contract: Stilson & Associates, Inc.,
                    Solicitation Number GS05P91GBD0090
11/13/91   A11065   Preaward Audit of Cost or Pricing Data: Life Skills
                    Foundation, Contract Number GS-06P-87 -GXC-
                    0062
11/14/91   A11171   Audit of Claim for Delay Costs: American
                    Constructors, Inc., Contract Number GS-07P-89-
                    HUC-0073
11/14/91   A22402   Preaward Audit of Architect and Engineering
                    Services Contract: Kaplan/McLaughlin/Diaz,
                    Solicitation Number GS-09P-91-KTD-0048
11/15/91   A23303   Pre award Audit of Architect and Engineering
                    Services Contract: Alphatec P.C., Solicitation
                    Number GSI IP91EGD0125
11/19/91   A10387   Preaward Audit of Architect and Engineering
                    Services Contract: Syska and Hennessy, Solici-
                    tation Number GS-11P-91-EGC-0112
11/19/91   A1l685   Preaward Audit of Architect and Engineering
                    Services Contract: Summer Consultants,
                    Incorporated, Consultant to Sorg and Associates,
                    Solicitation Number GS-l 1P-91-EGC-01 19
11/19/91   A21505   Pre award Audit of Architect and Engineering
                    Services Contract: AME Associates, Inc., Solici-
                    tation Number GS05P91GBD0087
11/20/91   A10383   Pre award Audit of Cost or Pricing Data: M.A.C.
                    Construction Inc., Subcontractor Under U.S.
                    Small Business Administration, Solicitation
                    Number GS-02P-91-CUC-0065 NEG.
11/21/91   A10392   Preaward Audit of Architect and Engineering
                    Services Contract: Ysrael A. Seinuk, P.C.,
                    Contract Number GS02P91 CUC0058
                Appendix //- Audit Report Regis r
                                                                                Financial
                                                                            Recommendations
                                                                         Funds To      Questioned
Date of    Audit                                                         Be Put To    (Unsupported)
Report     Number                        Title                           Better Use       Costs

11/22/91   AI0390   Preaward Audit of Architect and Engineering
                    Services Contract: Flack + Kurtz Consulting
                    Engineers, Solicitation Number GS-02B-22478
11/25/91   AI0693   Preaward Audit of Small Business Administration
                    8(A) Pricing Proposal: Edwards Janitorial Service,
                    Solicitation Number GS-04P-91-EWC-0067
11/26/91   A11660   Preaward Audit of Claim for Increased Costs: John
                    J. Kirlin, Inc., Subcontractor to Chas. Riddle
                    Associates, Inc., Contract Number GS-ll P90-
                    MKC0116
11/26/91   A22406   Pre award Audit of Architect and Engineering
                    Services Contract: Casazza, Peetz & Hancock,
                    Solicitation Number GS-09P-91-KTD-0048
11/26/91   A23004   Report on Application of Agreed-Upon Procedures
                    Under RFP No. GS-IIP91EGD0124, Lewis &
                    Associates, Ltd., Alexandria, Virginia
11/27/91   A1l415   Pre award Audit of Change Order Proposal: Intrepid
                    Enterprises, Inc., Subcontractor to Tutor-Saliba
                    Corporation, Contract Number GS-09P-88-KTC-
                    0232
11/29/91   A23304   Pre award Audit of Architect and Engineering
                    Services Contract: McMullan and Associates, Inc.,
                    Solicitation Number GSIIP91EGD0128
12/02/91   A20303   Pre award Audit of Architect and Engineering
                    Services Contract: Alonzo B. Reed, Inc.,
                    Solicitation Number GS-O 1P-91-BZC-0031
12/04/91   A22405   Preaward Audit of Lease Escalation Proposal:
                    South Coast Air Quality Management District,
                    Lease Number GS-09B-82247
12/10/91   A10380   Preaward Audit of Architect and Engineering
                    Services Contract: Cosentini Associates,
                    Solicitation Number GS-02P-091-CUC-0030 NEG.
12/16/91   A22114   Pre award Audit of Small Business Administration
                    8(a) Pricing Proposal: Mike Garcia Merchant
                    Security, Inc., Solicitation Number GS-07P-HTC-
                    91-0087/7PPB
12/17/91   A23025   Report on Review of Accounting System: Lewis and
                    Associates, Limited, Alexandria, Virginia
12/18/91   A20317   Pre award Audit of Architect and Engineering
                    Services Contract: Lottero and Mason Associates,
                    Inc., Solicitation Number GS-02P-91-CUC-0072
                    NEG.
                Appendix //- Au                          ort Register
                                                                               Financial
                                                                           Recommendations
                                                                        Funds To      Questioned
Date of    Audit                                                        Be Put To    (Unsupported)
Report     Number                        Title                          Better Use       Costs
12/19/91   A21513   Pre award Audit of Architect and Engineering
                    Services Contract: A. Epstein and Sons
                    International, Inc., Contract Number GS05-
                    PS7GBC-0065, Modification Number 12
12/23/91   A23310   Preaward Audit of Architect and Engineering
                    Services Contract: Lukmire Partnership, Inc.,
                    Solicitation Number GS11P91EGD0135
12/24/91   Al1672   Preaward Audit of Lease Alteration Proposal:
                    Truland Systems Corporation, A Subcontractor of
                    A.S. McGaughan Company, Inc., Lease Number
                    GS-11B-90222, RFP Number 9
01/07/92   A22436   Audit of Claim for Increased Costs: Scott Company
                    of California, Contract Number GS-09P-SS-KTC-
                    0232
01/0S/92   A11055   Audit of Termination Proposal: American Power,
                    Inc., Contract Number GS-OSB-S4211
01/09/92   A20633   Pre award Audit of Supplemental Architect and
                    Engineering Services Contract: The Sear-Brown
                    Group, Solicitation Number GD-02P91-CUD-0027
                    NEG.
01/13/92   A11175   Preaward Audit of Architect and Engineering
                    Services Contract: Oz Architecture, Solicitation
                    Number GS-07P-91-JUC-001S
01/13/92   A21S19   Pre award Audit of Small Business Administration
                    S(A) Pricing Proposal: Gill Construction, Inc.,
                    Solicitation Number GS006P91GYC-0079 NEG.
01/14/92   A2031S   Preaward Audit of Architect and Engineering
                    Services Contract: Thompson Consultants, Inc.,
                    Solicitation Number GS-02P-091-CUC-0072 NEG.
01/15/92   A10646   Preaward Audit of Change Order Proposal:
                    Danville-Findorff, Inc., Contract Number GS-04P-
                    S7-EXC-0075
01/15/92   A20632   Pre award Audit of Architect and Engineering
                    Services Contract: Mariano D. Molina, P.C.,
                    Solicitation Number GS-02P-91-CUC-0073(NEG)
01/15/92   A23011   Pre award Audit of Lease Escalation Proposal:
                    Laszlo N. Tauber, Medical Doctor and Associates,
                    Lease Number GS-03B-60 1 72
01/15/92   A23312   Preaward Audit of Architect and Engineering
                    Services Contract: Wisnewski Blair & Associates
                    Ltd., Solicitation Number GS11P91EGD0134
                A en             //- Audit Report                         ister
                                                                                 Financial
                                                                             Recommendations
                                                                          Funds To      Questioned
Date of    Audit                                                          Be Put To    (Unsupported)
Report     Number                        Title                            Better Use       Costs
01/16/92   A21816   Audit of Claim: J. S. Alberici Construction
                    Company, Inc .. Contract Number GS06P88-
                    GYC0009
01/17/92   A11671   Pre award Audit of Change Order Proposal: L. M.
                    Bradshaw Contracting. Inc., A Second Tier
                    Subcontractor to Nova Group Inc., Contract
                    Number GS-IIP88MKC0224
01/17/92   A1l673   Pre award Audit of Change Order Proposal: Truland
                    Systems Corporation, A Subcontractor to the
                    George Hyman Construction Company, Contract
                    Number GS-ll P90MKCO 19 NEG.
01/22/92   A23023   Pre award Audit of Small Business Administration
                    8(a) Pricing Proposal: Colorado Security Agency,
                    Incorporated, Contract Number GS-IIP-92-MJC-
                    00068(a)
01/28/92   A23313   Preaward Audit of Architect and Engineering
                    Services Contract: Hankins and Anderson
                    Incorporated, Solicitation Number GS11P91EGD-
                    0134
01/29/92   A20320   Preaward Audit of Architect and Engineering
                    Services Contract: Shepley Bulfinch Richardson
                    and Abbott, Incorporated, Solicitation Number GS-
                    02P-091-CUC-0072 NEG.
01/30/92   AI0691   Preaward Audit of Architect and Engineering
                    Services Contract: Barber and McMurry, Inc.,
                    Contract Number GS-04P-91-EXC-0027
01/30/92   A20322   Preaward Audit of Architect and Engineering
                    Services Contract: Stibler Associates, Solicitation
                    Number GS-02P-9I-CUC-0072 NEG.
01/30/92   A21829   Preaward Audit of Change Order Proposal:
                    Engineered Fire Protection, Inc., Subcontractor to
                    BSI Constructors, Inc., Contract Number GS06-
                    P89-GYCOI92
01/31/92   AI0845   Audit of Subcontracting Program: Stein &
                    Company Federal Center, Inc., Lease Number GS-
                    05B-14850
01/31/92   A23018   Pre award Audit of Lease Alteration Proposal:
                    Truland Systems Corporation, A Subcontractor of
                    A.S. McGaughan Co., Inc., Lease Number GS-llB-
                    90222, RFP Number 41
                 A                                          ort Register
                                                                                  Financial
                                                                              Recommendations
                                                                           Funds To      Questioned
Date of    Audit                                                           Be Put To    (Unsupported)
Report     Number                          Title                           Better Use       Costs
01/31/92   A23020    Preaward Audit of Lease Alteration Proposal:
                     Truland Systems Corporation, A Subcontractor of
                     A.S. McGaughan Co., Inc., Lease Number GS-llB-
                     90222, RFP Number 18
01/31/92   A23027    Preaward Audit of Lease Alteration: Ceilings and
                     Partitions, Incorporated, A Subcontractor of A.S.
                     McGaughan Company, Inc., Lease Number GS-
                     IIB-90222, RFP Number 11
02/03/92   A22433    Pre award Audit of Cost or Pricing Data: California
                     Western Arborists, Inc., Solicitation Number GS-
                     09P-92-NPC-0007
02/05/92   A21219    Preaward Audit of Architect and Engineering
                     Services Contract: Reynolds, Smith and Hills,
                     Incorporated, Contract Number GS-04P-91-EXC-
                     0028
02/07/92   A21831    Pre award Audit of Change Order Proposal: Bick
                     Corporation, Subcontractor to BSI Constructors,
                     Inc., Contract Number GS06P89GYC-0 192
02/10/92   A20646    Pre award Audit of Architect and Engineering
                     Services Contract: Ben Thompson Associates,
                     Solicitation Number GS-02P91CUC0090 NEG.
02/11/92   A11647    Report on Audit of Contractor Delay Claim
                     Proposal to General Services Administration Under
                     Prime Contract No. GS-IIP87MKC-7502,
                     Submitted by Tompkins Builders, Washington, DC
02/13/92   A21213    Audit of First and Second Invoices: Marriott FSM
                     Corporation, Contract Number GS-04P-90-EWC-
                     0126
02/13/92   A23019    Preaward Audit of Lease Alteration Proposal:
                     Truland Systems Corporation, A Subcontractor of
                     A.S. McGaughan Co., Inc., Lease Number GS-llB-
                     90222, RFP Number 14
02/14/92   A11421    Audit of Claim for Increased Costs: 301 Howard
                     Street Associates, Lease Number GS-09B-88650
02/14/92   A23030    Preaward Audit of Small Business Administration
                     8(a) Pricing Proposal: Mid-Atlantic Security
                     Services, Incorporated, Contract Number GS-IIP-
                     92-MJC-00128(a)
02/19/92   A2032 1   Preaward Audit of Architect and Engineering
                     Services Contract: PMR Architects, P.C., Solici-
                     tation Number GS-02P-091-CUC-0072 NEG.
                 Appendix //- Audit Report Register
                                                                                 Financial
                                                                             Recommendations
                                                                          Funds To       Questioned
Date of    Audit                                                          Be Put To     (Unsuppo:rted)
Report     Numbe:r                        Title                           BetteI' Use       Costs

02/19/92   A23024    Report on Application of Agreed-Upon Procedures
                     to Review Pricing Proposal Under RFP Number
                     GSI1-P91EGD0136: Swanke Hayden Connell
                     Architects, New York, New York
02/20/92   A23007    Pre award Audit of Change Order Proposal: C.P.F.
                     Underground Utilities, Incorporated, A Sub-
                     contractor of Nova Group, Inc., Contract Number
                     GS-11P88-MKC0224
02/21/92   A21207    Pre award Audit of Architect and Engineering
                     Services Contract: Spillis, Candela, and Partners,
                     Inc., Contract Number GS-04P-91-EXC-0029
02/24/92   A11689    Pre award Audit of Lease Alteration Proposal:
                     Pierce Associates, Inc., A Subcontractor to the
                     Charles E. Smith Companies, Lease Number GS-
                     11B-00148
02/24/92   A23028    Pre award Audit of Architect and Engineering
                     Services Contract: Setty and Associates, Limited,
                     Solicitation Number GS11P91EGD0132
02/26/92   Al1618    Audit of Cafeteria Overcharges:         Marriott
                     Corporation
02/26/92   A21835    Preaward Audit of Change Order Proposal: Wies
                     Drywall & Construction Corporation, Subcon-
                     tractor to BSI Constructors, Inc., Contract Number
                     GS06P89GYCO 192
02/27/92   A20645    Preaward Audit of Architect and Engineering
                     Services Contract: Kallen and Lemelson,
                     Incorporated, Solicitation Number GS-02P91 CUC-
                     0090 NEG.
02/27/92   A23017    Preaward Audit of Lease Alteration Proposal:
                     Truland Systems Corporation, A Subcontractor of
                     A.S. McGaughan Co., Inc., Lease Number GS-llB-
                     90222, RFP Number 28
02/28/92   A1l677    Pre award Audit of Change Order Proposal: Nova
                     Group Incorporated, Contract Number GS-1IP88-
                     MKC0224
03/02/92   A11140    Audit of Termination Proposal: Dawson Con-
                     struction Company, Inc., Contract Number GS-
                     07P-89-HUC-0062
03/02/92   A22451    Preaward Audit of Cost or Pricing Data: Conbalco,
                     Inc., Subcontractor to Sacramento Cooling
                     Systems, Inc., Contract Number GS-09P-KTC-
                     0153
                Appendix //- Au t Report                                ister
                                                                               Financial
                                                                           Recommendations
                                                                        Funds To      Questioned
Date of    Audit                                                        Be Put To    (Unsupported)
Report     Number                        Title                          Better Use       Costs
03/04/92   A22452   Pre award Audit of Cost or Pricing Data: Brand
                    Scaffold Builders, Inc., Subcontractor to
                    Sacramento Cooling Systems, Inc., Contract
                    Number GS-09P-91-KTC-0153
03/10/92   A20932   Audit of Termination Proposal: A.R. Scalise,
                    Incorporated, Contract Number GS-03P-88-DXC-
                    0069
03/10/92   A20934   Audit of Termination Proposal: Harmon Lumber
                    and Supply Company, Contract Number GS-03P-
                    88-DXC-0069
03/10/92   A20936   Audit of Termination Proposal: Easley and Rivers,
                    Incorporated, Contract Number GS-03P-88-DXC-
                    0069
03/10/92   A21815   Audit of Termination Proposal: Leo A. Daly
                    Company, Contract Number GS06P89GYC0209
                    NEG.
03/11/92   A23036   Report on Application of Agreed-Upon Procedures
                    Regarding Subcontractor Proposal to Peck, Peck
                    and Associates, Incorporated, Under RFP Number
                    GSIIP91EGD0141, Subcontract Number
                    Z7911773 Submitted by PKP Engineers,
                    Professional Corporation
03/12/92   A20639   Preaward Audit of Cost or Pricing Data: BPT
                    Properties, Foley Square, L.P., Contract Number
                    GS-02P-91CUC-0057
03/12/92   A20933   Audit of Termination Proposal: P.J. Dick
                    Contracting, Inc., Contract Number GS-03P-88-
                    DXC-0069
03/12/92   A20935   Audit of Termination Proposal: P.J. Dick
                    Contracting, Inc., Contract Number GS-03P-88-
                    DXC-0069
03/16/92   A23035   Report on Application of Agreed-Upon Procedures
                    to Review Pricing Proposal Under Solicitation
                    Number GSI 1P91EGD0141, Peck, Peck and
                    Associates, Incorporated, Woodbridge, Virginia
03/19/92   A23016   Pre award Audit of Change Order Proposal: George
                    Hyman Construction Company, Contract Number
                    GS-IIP90-MKC0197
03/20/92   A23031   Report on Audit of Proposal for Initial Pricing
                    Under RFP Number GSIIP91EGC0140, K and M
                    Engineering and Consulting Corporation,
                    Washington, DC
                A      en         II-Au t Report Regis r
                                                                                 Financial
                                                                             Recommendations
                                                                          Funds To      Questioned
Date of    Audit                                                          Be Put To    (Unsupported)
Report     Number                         Title                           Better Use       Costs
03/23/92   Al1676    Preaward Audit of Change Order Proposal: John J.
                     Kirlin, Inc., A Subcontractor to The George Hyman
                     Construction Co., Contract Number GS-IIP90-
                     MKC0197 Neg.
03/24/92   A22102    Preaward Audit of Change Order Proposal: Hibbitts
                     Construction, Inc., Solicitation Number GS-07P-
                     91-JXC-00 10
03/25/92   A22429    Preaward Audit of Cost or Pricing Data:
                     Sacramento Cooling Systems, Inc., Contract
                     Number GS-09P-91-KTC-0153
03/25/92   A22445    Preaward Audit of Architect and Engineering
                     Services Contract: Edaw, Inc., Solicitation Number
                     GS-IIP-91-EGD-0138
03/25/92   A23044    Preaward Audit of Change Order Proposal:
                     Singleton Electric Company, Incorporated, A
                     Subcontractor of Grunley Construction Company,
                     Incorporated, Contract Number GS-IIP90MKC-
                     0218IDC / 08038
03/27/92   A20649    Preaward Audit of Supplemental Architect and
                     Engineering Services Contract: Einhorn Yaffee
                     Prescott, Architecture & Engineering, P.C.,
                     Solicitation Number GSIIP91EGD0141
03/27/92   A21228    Pre award Audit of Lease Escalation Proposal:
                     Research Plaza Associates, Lease Number GS-04B-
                     23288
03/27/92   A21830    Pre award Audit of Change Order Proposal:
                     Guarantee Electric Company, Subcontractor to
                     BSI Constructors, Inc., Contract Number
                     GS06P89-GYCO 192
03/30/92   A21843    Preaward Audit of Small Business Administration
                     8(A) Pricing Proposal: Banderas Wrecking &
                     Excavating, Solicitation Number GS06P92GYC-
                     0009
03/30/92   A22104    Audit of Claim for Equitable Adjustment: Virga
                     Corporation, Contract Number GS-07P-89-HUC-
                     0085
03/30/92   A2244 1   Pre award Audit of Architect and Engineering
                     Services Contract: Kemron Environmental
                     Services, Inc., Solicitation Number GS-IIP-
                     91EGD0138
03/30/92   A22456    Preaward Audit of Architect and Engineering
                     Services Contract: Wilbur Smith Associates, Inc.,
                     Solicitation Number GS-09P-91-KTD-0074
                Appendix //- Audit Report R ister
                                                                                 Financial
                                                                             Recommendations
                                                                          Funds To      Questioned
Date of    Audit                                                          Be Put To    (Unsupported)
Report     Number                        Title                            Better Use       Costs

FSS        INTERNAL AUDITS
10/31/91   A00202   Audit of the Quality Approved Manufacturers
                    Agreement Program, Region 4
12/16/91   A10314   Review of Federal Surplus Property Donation
                    Program, Region 2
12/17/91   AOO062   Review of GBL Document Controls Transportation
                    Audits
12/19/91   A11046   Audit of Operations of the Technical Research
                    Section of the Region 6 Federal Supply Service
01/15/92   A00106   Audit of Product Marking Requirements at the
                    Northeast Distribution Center
01/15/92   A10658   Audit of Fort Knox Fleet Management Center,             $360,000
                    Region 4
01/24/92   A10070   Audit of Seattle Fleet Management Center
01/31/92   A1l371   Audit of Customer Supply Center Operations,
                    Anchorage, Alaska
02/10/92   A22111   Audit of Backorders, General Products Commodity
                    Center, Fort Worth, Texas, Region 7
02/25/92   AI0339   Review of Time and Attendance Practices of the
                    Federal Supply Service, Office Supplies & Paper
                    Products Commodity Center, Region 2
03/12/92   A20939   Audit of Product Marking Requirements
03/25/92   A22408   Review of Inventory of Sensitive Items, Western
                    Distribution Center, Stockton. California. Region 9
03/26/92   A21524   Interim Audit of Government Civilian Aircraft
03/30/92   AI0828   Audit of Vehicle Sale Preparation Costs, Region 5



FSS        CONTRACT AUDITS
10/02/91   AI1056   Pre award Audit of Multiple Award Schedule
                    Contract: Isco Environmental Division, Solicitation
                    Number FCGS-X3-91-0026-B- N
10/03/91   A10216   Audit of Claim for Increased Costs: Acoustical
                    Screen Corporation, Contract Number GS-OOF-
                    02576
                A endix //- Audit Report Regis r
                                                                               Financial
                                                                           Recommendations
                                                                        Funds To      Questioned
Date of    Audit                                                        Be Put To    (Unsupported)
Report     Number                        Title                          Better Use       Costs
10/03/91   A10553   Preaward Audit of Multiple Award Schedule
                    Contract: Knoll International, Inc., Solicitation
                    Number FCNS-91-B901-B-3-5-91
10/07/91   A10364   Pre award Audit of Cost or Pricing Data:
                    Centercore, Inc., Solicitation Number FCNS-91-
                    B901-B
10/07/91   Al1159   Pre award Audit of Multiple Award Schedule
                    Contract: Tri-Tech, Inc., Solicitation Number
                    7FXG-L3-91-7802-B
10/09/91   A1l389   Pre award Audit of a Multiple Award Schedule
                    Contract: Pleion Corporation, Solicitation Number
                    FCNS-91-B90 1-B-3-5-91
10/10/91   AI0673   Pre award Audit of Multiple Award Schedule
                    Contract: American Body Armor & Equipment,
                    Inc., Solicitation Number 7FXG-B3-91-8411-B
10/10/91   A10688   Limited Audit of Government Billings Under                            $2,325
                    Contract Number GS-07F-16464, American Body
                    Armor & Equipment, Inc.
10/11/91   A10689   Limited Audit of Government Billings Under                            $1,457
                    Contract Number GS-07F-16785, Night Vision
                    Equipment Company, Inc.
10/16/91   A10867   Preaward Audit of Cost or Pricing Data: Hamilton
                    Products Group, Inc., Solicitation Number FCNS-
                    90-G504-B
10/17/91   A1l430   Pre award Audit of Cost or Pricing Data: Datatape
                    Incorporated, Request for Proposals Number GS-
                    03F- 91-AYC-0002
10/18/91   All161   Pre award Audit of Multiple Award Schedule
                    Contract: Joerns Healthcare, Inc., Solicitation
                    Number FCNH-91-FW01-B-5-2-91
10/22/91   A21206   Limited Audit of Multiple Award Schedule
                    Contract: Honda of Russellville, Arkansas,
                    Contract Number GS-00F-04120
10/23/91   A10385   Pre award Audit of Multiple Award Schedule
                    Contract: Climatronics Corporation, Solicitation
                    Number FCGS-X3-91-0026-B-N
10/23/91   Al1362   Preaward Audit of Cost or Pricing Data: Tab
                    Products Co., Solicitation Number FCNS-91-B901-
                    B-3-5-91
10/25/91   A10872   Pre award Audit of Multiple Award Schedule
                    Contract: Graco, Inc., Solicitation Number 7FXI-
                    K7-91-4905-B
                Appendix //- Audit R ort Register
                                                                                  Financial
                                                                              Recommendations
                                                                           Funds To      Questioned
Date of    Audit                                                           Be Put To    (Unsupported)
Report     Number                         Title                            Better Use       Costs
10/25/91   Al1398   Preaward Audit of Multiple Award Schedule
                    Contract: Paramount Fitness Equipment Cor-
                    poration, Solicitation Number 7FXG-L3-91-7802-B
10/30/91   A10873   Preaward Audit of Cost or Pricing Data: Mosler
                    Inc., Solicitation Number FCNS-90-G504-B
10/31/91   A10386   Pre award Audit of Multiple Award Schedule
                    Contract: Cybex Division of Lumex, Inc.,
                    Solicitation Number 7FXG-L3-91-7802-B
10/31/91   A10563   Preaward Audit of Multiple Award Schedule
                    Contract: Atlantic Fitness Products Co., Solici-
                    tation Number 7FXG-L3-91-7802-B
10/31/91   A1l383   Pre award Audit of Multiple Award Schedule
                    Contract: Life Fitness, Inc., Solicitation Number
                    7FXG-L3-91-7802-B
10/31/91   Al1850   Pre award Audit of Multiple Award Schedule
                    Contract: Nautilus Acquisition Corporation, Solici-
                    tation Number 7FXG-L3-91-7802-B
10/31/91   Al1870   Pre award Audit of Multiple Award Schedule
                    Contract: Virginia Impression Products (Federal
                    Marketing Company), Solicitation Number 7FXI-
                    H6-91-6107-B
11/06/91   Al1174   Pre award Audit of Multiple Award Schedule
                    Contract: The Hotsy Corporation, Solicitation
                    Number 7FXl-K7-91-4905-B
11/06/91   Al1369   Pre award Audit of Cost or Pricing Data: Handar,
                    Inc., Solicitation Number FCGS-X3-91-0026-B-N
11/08/91   A10876   Pre award Audit of Multiple Award Schedule
                    Contract: Spectra-Physics Laserplane, Inc.,
                    Solicitation Number FCGS-X3-91-0026-B-N
11/13/91   All151   Pre award Audit of Multiple Award Schedule
                    Contract: U.S. Toy Co., Inc., Solicitation Number
                    7FXG- L3-91-7802-B
11/15/91   A10251   Preaward Audit of Multiple Award Schedule
                    Contract: Vaisala, Inc., Solicitation Number FCGS-
                    X3-91-0026-B-N
11/19/91   A10362   Pre award Audit of Cost or Pricing Data:
                    Centercore, Inc., Solicitation Number FCNS-90-
                    G701-B
11/21/91   A21512   Pre award Audit of Multiple Award Schedule
                    Contract: Axia Inc., Nestaway Division, Solicitation
                    Number 7FXl-E5-91-3904-B
                                 //- Audit Report Register
                                                                                Financial
                                                                            Recommendations
                                                                         Funds To      Questioned
Date of    Audit                                                         Be Put To    (Unsupported)
Report     Number                        Title                           Better Use       Costs
11/25/91   AI0687   Limited Audit of Government Sales Under Multiple                       $1,823
                    Award Schedule Contract: Skyland Equipment
                    Company, Contract Number GS-00F-5401A
11/25/91   A21509   Limited Audit of Government Billings: Spectra-                         $3,026
                    Physics Laserplane, Inc., Contract Number GS-
                    00F-06978
11/26/91   A11374   Pre award Audit of Multiple Award Schedule
                    Contract: Sea-Bird Electronics Incorporated,
                    Solicitation Number FCGS-X3-91-0026-B-N
11/26/91   A20304   Preaward Audit of Cost or Pricing Data: American
                    Science and Engineering, Inc., Solicitation Number
                    7FXG-B3-91-8411-B
1l/27/91   A1l427   Preaward Audit of Multiple Award Schedule
                    Contract: Deltec Electronics Corporation,
                    Solicitation Number 7FXI -R7 -91-6109-B
12/23/91   A22409   Pre award Audit of Multiple Award Schedule
                    Contract: Elgar Corporation, Solicitation Number
                    7FXI-R7 -91-61 09B
01/14/92   All059   Pre award Audit of Multiple Award Schedule
                    Contract: The Lietz Company, Solicitation Number
                    FCGS-X3-91-0026-B-N
01/14/92   Al1170   Postaward Audit of Multiple Award Schedule Con-                      $54,476
                    tract: Smith and Nephew Rolyan, Incorporated,
                    Contract Number GS07F17492
01/14/92   A22106   Limited Postaward Audit of Multiple Award                            $17,339
                    Schedule Contract: The Hotsy Corporation,
                    Contract Number GS-07F-19316
01/14/92   A22122   Pre award Audit of Multiple Award Schedule
                    Contract: International Power Machines
                    Corporation, Solicitation Number 7FXI -R7 -91-
                    6109B
01/16/92   A20635   Preaward Audit of Multiple Award Schedule
                    Contract: R.R. Bowker Company, Solicitation
                    Number 2FYS-AN-91-0002-M
01/17/92   A20902   Pre award Audit of Multiple Award Schedule
                    Contract: Stanley-Vidmar, Inc., Solicitation
                    Number FCNH-91-F201-N-8-29-91
01/17/92   A21519   Preaward Audit of Cost or Pricing Data: Advance
                    Lifts, Inc., Solicitation Number 7FXl-E5-91-3904-B
                                 //- Audit Report
                                                                                 Financial
                                                                             Recommendations
                                                                          Funds To      Questioned
Date of    Audit                                                          Be Put To    (Unsupported)
Report     Number                         Title                           Better Use       Costs
01/21/92   A21523   Pre award Audit of Multiple Award Schedule
                    Contract: Schwab Corporation, Solicitation
                    Number FCNS-90-G504-B
01/24/92   A23311   Pre award Audit of Multiple Award Schedule
                    Contract: Power Distribution, Inc., Solicitation
                    Number 7FXI-R7-91-6109-B
01/27/92   A21820   Pre award Audit of Multiple Award Schedule
                    Contract: Matthews Medical and Scientific Books,
                    Inc., Solicitation Number 2FYS-AN-91-0002-M
01/31/92   A21508   Preaward Audit of A Claim for Increased Costs:
                    Best Foam Fabricators, Inc., Contract Number GS-
                    02F-52576
02/05/92   A22424   Pre award Audit of Multiple Award Schedule
                    Contract: EPE Technologies, Incorporated,
                    Solicitation Number 7FXI-R7-91-6109-B
02/13/92   A21525   Preaward Audit of Multiple Award Schedule
                    Contract: Rite-HUe Corporation, Solicitation
                    Number 7FXI-E5-91-3904-B
02/14/92   A22125   Preaward Audit of Cost or Pricing Data: Munson
                    Manufacturing, Inc., Contract Number GS07-
                    F3382A
02/14/92   A22416   Pre award Audit of Multiple Award Schedule
                    Contract: Hewlett-Packard Company, Solicitation
                    Number 7FXI-R7-91-6l09B
02/18/92   A20918   Pre award Audit of Multiple Award Schedule
                    Contract: McNaughton Book Service, Solicitation
                    Number 2FYS-BD-91-0016-M
02/19/92   A20917   Pre award Audit of Multiple Award Schedule
                    Contract: Datapro Information Services Group,
                    Solicitation Number 2FYS-AN-91-0002-M
02/20/92   A11397   Preaward Audit of Multiple Award Schedule
                    Contract: Square D Company, Power Protection
                    Systems, Solicitation Number 7FXI-R7-91-6109B
02/20/92   A20316   Pre award Audit of Multiple Award Schedule
                    Contract: Lista International Corporation, Inc.,
                    Solicitation Number FCNH-9l-F201
02/28/92   A20638   Preaward Audit of Multiple Award Schedule
                    Contract: Prentice Hall, Incorporated, Solicitation
                    Number 2FYS-AN-91-0002-M
                                 //-A            it Report
                                                                                Financial
                                                                            Recommendations
                                                                         Funds To      Questioned
Date of    Audit                                                         Be Put To    (Unsupported)
Report     Number                        Title                           Better Use       Costs
03/02/92   A22139   Pre award Audit of Multiple Award Schedule
                    Contract: Polytex Fibers Corporation, Solicitation
                    Number 2FYS-BD-91-0004-M
03/03/92   A21518   Pre award Audit of Cost or Pricing Data: Schwab
                    Corporation, Solicitation Number FCNS-90-G504-B
03/04/92   A21504   Pre award Audit of Multiple Award Schedule
                    Contract: Liebert Corporation, Solicitation Number
                    7FXI -R7 -91-61 09B
03/10/92   A20923   Limited Audit of Government Billings Under                             $4,413
                    Contract Number GS-02F-52306, Datapro
                    Information Services Group
03/12/92   A22115   Postaward Audit of Multiple Award Schedule
                    Contract: KLN Steel Products Company, Contract
                    Numbers GS-00F-94571 & GS-00F-94599
03/18/92   A20907   Pre award Audit of Multiple Award Schedule
                    Contract: Sutron Corporation, Solicitation Number
                    FCGS-X3-91-0026-B-N
03/18/92   A23309   Pre award Audit of Multiple Award Schedule
                    Contract: Jane's Information Group, Inc.,
                    Solicitation Number 2FYS-AN-91-0002-M
03/19/92   A20916   Pre award Audit of Multiple Award Schedule
                    Contract: Fisher Scientific-Contempro Furniture
                    DiviSion, Solicitation Number FCGS-X2-91-0028-
                    B-N
03/27/92   A20319   Preaward Audit of Multiple Award Schedule
                    Contract: American Power Conversion Cor-
                    poration, Solicitation Number 7FXI-R7-91-6109B
03/27/92   A21534   Preaward Audit of Cost or Pricing Data: Axia,
                    Incorporated, Flexible Material Handling Division,
                    Solicitation Number 7FXI-E5-91-3904-B
03/27/92   A21541   Pre award Audit of Multiple Award Schedule
                    Contract: Cheshire Division, Videojet Systems
                    International, Inc., Solicitation Number FCGE-C2-
                    920103-B
03/30/92 A21230     Pre award Audit of Cost or Pricing Data: B. F.
                    Hurley Mat Company, Incorporated, Solicitation
                    Number FCNH-90-D623-N
03/30/92   A21235   Limited Audit of End-of-Contract Aggregate Dis-                        $3,187
                    count: B. F. Hurley Mat Company, Incorporated,
                    Contract Number GS-00F-02184
                A      en          //- Audit Report Register
                                                                                    FinlIDcial
                                                                                Recommendations
                                                                             Funds To      Questioned
Date of    Audit                                                             Be Put To    (Unsupported)
Report     Number                          Title                             Better Use       Costs
03/30/92   A21236    Limited Audit of End-of-Contract Aggregate                                $1,986
                     Discount: B. F. Hurley Mat Company, Incor-
                     porated, Contract Number GS-00F-76328



IRMS       INTERNAL AUDITS
12/24/91   A1082 1   Audit of the Information Resources Management
                     Service Contracts Branch, Chicago, Illinois, Region 4



IRMS       CONTRACT AUDITS
10/02/91   A11379    Pre award Audit of Multiple Award Schedule
                     Contract: NeXT Computer, Inc., Contract Number
                     GS-00K-91-AGS-5690-PS01 (Renewal)
10/10/91   Al1385    Preaward Audit of Multiple Award Schedule
                     Contract: Loral Terracom, Solicitation Number
                     GSC-KESR-00061-N-05-01-91
10/18/91   A10371    Pre award Audit of Multiple Award Schedule
                     Contract: Linotype-Hell Company, Solicitation
                     Number GSC-KESO-C-00045-N
10/18/91   A10389    Limited Scope Audit of Government Billings Under                         $22,507
                     Contract Number GSOOK91AGS5829: Linotype-
                     Hell Company
10/18/91   A10566    Limited Audit of Government Billings Under                                $3,507
                     Contract Number GS-00K-89-AGS-0440, Comdial
                     Corporation, Inc.
11/05/91   A11062    Audit of Proposed 1990 Overhead Rates: U.S.
                     Sprint Communications Company, Contract
                     Number GSOOK89-AHD0009
11/08/91   A11150    Preaward Audit of Multiple Award Schedule
                     Contract: Motorola Inc., Government Electronics
                     Group, Solicitation Number GSC-KESR-00061-N-
                     05-01-91
11/13/91   A10377    Preaward Audit of Multiple Award Schedule
                     Contract: Panasonic Communications and
                     Systems Company, Solicitation Number GSC-
                     KESV-00060-N
11/14/91   All143    Preaward Audit of Multiple Award Schedule
                     Contract: Rockwell International, Collins Inter-
                     national Service Company, Solicitation Number
                     GSC-KESR-00061-N-05-01-91
                A en                                      ort Register
                                                                                Financial
                                                                            Recommendations
                                                                         Funds To      Questioned
Date of    Audit                                                         Be Put To    (Unsupported)
Report     Number                        Title                           Better Use       Costs
11/15/91   A1l975   Preaward Audit of Cost or Pricing Data: Falcon
                    Systems, Inc., Solicitation Number GSC-KESO-C-
                    00045-N-4-23-91
11/20/91   A10558   Preaward Audit of Multiple Award Schedule Con-
                    tract: Unisys Corporation, Solicitation Number
                    GSC-KESO-C-00045-N-4-23-91
12/04/91   A1l988   Pre award Audit of Multiple Award Schedule
                    Contract: Sequent Computer Systems, Inc., Sub-
                    contractor to Falcon Systems, Inc., Solicitation
                    Number GSC-KESO-C-00045-N-4-23-91
12/05/91   A10562   Pre award Audit of Multiple Award Schedule
                    Contract, Ricoh Corporation, Solicitation Number
                    GSC-KESV-00060-N -05-01-91
12/06/91   A1l403   Pre award Audit of Multiple Award Schedule
                    Contract, VMX, Inc., Solicitation Number GSC-
                    KESV-00060-N-05-0 1-91
12/12/91   A11974   Preaward Audit of Multiple Award Schedule
                    Contract: Systems Center, Inc., Solicitation
                    Number GSC-KESO-C-00045-N-4-23-91
12/30/91   A11849   Pre award Audit of Multiple Award Schedule
                    Contract: Information Builders, Inc., Solicitation
                    Number GSC-KESO-C-00045-N-4-23-91
01/14/92   A10249   Limited Scope Postaward Audit of Government                          $13,522
                    Billings Under Contract Numbers GS-OOK-
                    91AGS5838; GS-00K-90AGS5694; GS-OOK-
                    89AGS5531; GS-00K-87AGS5797; and GS-OOK-
                    86AGS5627, AGFA Corporation, Compugraphic
                    Division
01/14/92   A22437   Pre award Audit of Cost or Pricing Data: Motorola,
                    Inc., Government Electronics Group, Solicitation
                    Number, GSC-KESF-B-C-00046-N-1O-30-91
01/16/92   A10675   Pre award Audit of Multiple Award Schedule
                    Contract: General Electric Mobile Commun-
                    ications, Solicitation Number GSC-KESR-00061-N-
                    05-01-91
01/28/92   A21821   Pre award Audit of Change Order Proposal: U.S.
                    Sprint Communications Company, Contract
                    Number GSOOK89ADH0009
01/31/92   A23614   Pre award Audit of Cost or Pricing Data: Fedmark,
                    Solicitation Number GSC-KESF-B-C-00046-N-10-
                    30-91
                Appendix //- Audit Report Register
                                                                                   Financial
                                                                               Recommendations
                                                                            Funds To      Questioned
Date of    Audit                                                            Be Put To    (Unsupported)
Report     Number                         Title                             Better Use       Costs
02/10/92   A22426   Preaward Audit of Multiple Award Schedule
                    Contract: 800-Software, Solicitation Number GSC-
                    KESF -B-C-00046-N-10-30-91
02/20/92 A1l422     Limited Audit of Government Overbillings: Tandem                         $42,652
                    Computers, Inc., Contract Number GSOOK91-
                    AGS5828
02/27/92   A22427   Pre award Audit of Multiple Award Schedule
                    Contract: Hughes Lan Systems, Solicitation
                    Number GSC-KESF -B-C-00046-N-10-30-91
02/28/92 Al1983     Audit of Termination Proposal: Spectrum Leasing
                    Corporation, Contract GS-00C-70055
02/28/92   A22131   Pre award Audit of Multiple Award Schedule
                    Contract: Evans and Sutherland, Computer
                    Corporation, Solicitation Number GSC-KESF-B-C-
                    00046-N -10-30-91
03/05/92   A23616   Pre award Audit of Cost or Pricing Data: Denro,
                    Inc., Solicitation Number GSC-KESV-00060-05-
                    01-91
03/12/92   A23619   Preaward Audit of Cost or Pricing Data: Zenith/Inteq,
                    Inc., Solicitation Number GSC-KESF-B-C-00046-1 0-
                    30-91
03/25/92   Al1843   Pre award Audit of Multiple Award Schedule
                    Contract: IBM Corporation, Solicitation Number
                    GSC-KESO-C-00045-N -4-23-91
03/25/92   A21836   Preaward Audit of Multiple Award Schedule Con-
                    tract: Advanced Computer Technology, Inc.,
                    D/B/A Actech, Inc., Solicitation Number GSC-
                    KESF -B-C-00046-N-10-30-91
03/26/92   A20925   Pre award Audit of Multiple Award Schedule
                    Contract: Primavera Systems, Incorporated,
                    Solicitation Number GSC-KESF-B-C-00046-N-10-
                    30-91
03/26/92   A21529   Pre award Audit of Multiple Award Schedule
                    Contract: Zenith Data Systems, Solicitation
                    Number GSC-KESF -B-C-00046-N-1O-30-91
03/26/92   A23612   Preaward Audit of Cost or Pricing Data: Falcon
                    Microsystems, Inc., Solicitation Number GSC-
                    KESF-B-C 00046-N-10-30-91
03/30/92   A23322   Pre award Audit of Cost or Pricing Data: FC
                    Business Systems, Solicitation Number GSC-OIT-
                    0552
                A endix II-Au t Report
                                                                                 Financial
                                                                             Recommendations
                                                                          Funds To      Questioned
Date of    Audit                                                          Be Put To    (Unsupported)
Report     Number                         Title                           Better Use       Costs
03/30/92 A23323     Pre award Audit of Multiple Schedule Contract:
                    Bohdan Associates, Inc., Solicitation Number
                    GSC-KESF-B-C-00046-N-1O-30-91



OTHER INTERNAL AUDITS
10/02/91   A1l409   Audit of Imprest Fund, Honolulu Field Office,
                    Region 9
10/16/91   A10888   Limited Audit of the Regional Administrator's
                    Basis for Fiscal Year 1991, Federal Managers'
                    Financial Integrity Act Assurance Statement,
                    Region 5
10/17/91   A10565   Limited Audit of Regional Administrator's Fiscal
                    Year 1991 Section 2 Assurance Statement
10/17/91   A1l160   Limited Audit of the Regional Administrator's
                    Fiscal Year 1991 Section 2 Assurance Statement,
                    Region 7
10/18/91   A00897   Review of Delinquent ADP Receivables, Central
                    Office Controlled Issues
10/18/91   A1l687   Limited Audit of the Assistant Regional
                    Administrator Public Buildings Service Fiscal
                    Year 1991 Section 2 Assurance Statement
10/24/91   A10561   Audit of the Middle River Field Office Imprest Fund
11/05/91   A1l990   Limited Audit of the Information Resources
                    Management Service's Fiscal Year 1991 Assurance
                    Statement, National Capital Region
11/14/91   A1l370   Audit of Time and Attendance, Phoenix Field
                    Office, Region 9
11/15/91   A11989   Limited Audit of the Information Resources
                    Management Service's Fiscal Year 1991, Section 2
                    Assurance Statement
11/19/91   A22704   Limited Audit of the Deputy Regional
                    Administrator's Fiscal Year 1991 Section 2
                    Assurance Statement, National Capital Region
11/22/91   A11393   Audit of Imprest Fund, Los Angeles Fleet
                    Management Center, Region 9
11/22/91   A23605   Limited Audit of the Office of FTS 2000's Fiscal
                    Year 1991 Section 2 Assurance Statement
                Appendix 11- Audit Report Register
                                                                                Financial
                                                                            Recommendations
                                                                         Funds To      Questioned
Date of    Audit                                                         Be Put To    (Unsupported)
Report     Number                         Title                          Better Use       Costs

11/26/91   A00438   Audit of Printing Plant Operations In Region 3
11/26/91   A21514   Audit of Imprest Fund, Milwaukee Field Office,
                    Region 5
11/27/91   A1l861   Final Report on Review of Imprest Fund and
                    Travelers Checks
11/27/91   A23003   Limited Audit of the Federal Property Resources
                    Service Fiscal Year 1991, Section 2 Assurance
                    Statement
12/03/91   A21202   Limited Audit of the Regional Administrator's
                    Basis for Fiscal Year 1991 Federal Managers'
                    Financial Integrity Act Assurance Statement,
                    Region 4
12/04/91   A20915   Audit of the Norfolk Office Imprest Fund
12/10/91   A21823   Audit of Time and Attendance Practices, Federal
                    Protective Service Division, Operational Services
                    Branch, Kansas City, Missouri District
12/11/91   A22718   Limited Audit of Fiscal Year 1991, Section 2
                    Assurance Statements for GSA Staff Offices
12/13/91   A22705   Limited Audit of the Office of the Chief Financial
                    Officer's Fiscal Year 1991 Section 4 Assurance
                    Statement
12/31/91   A10391   Review of the Regional Imprest Fund, 26 Federal
                    Plaza, New York, NY
12/31/91   A11844   Limited Audit of Federal Supply Service's Fiscal
                    Year 1991 Section 2 Assurance Statement
01/02/92   A11060   Audit of National Payroll Center's Processing of       $196,104
                    Health Benefit Insurance Transactions for Health-
                    plus, Inc. of Maryland
01/03/92   A22702   Limited Audit of the Office of the Chief Financial
                    Officer's Fiscal Year 1991 Section 2 Assurance
                    Statement
01/07/92   A23005   Limited Audit of the Public Buildings Service
                    Fiscal Year 1991 Section 2 Assurance Statement
01/15/92   A21833   Audit of Imprest Fund Operations, Public
                    Buildings Service Field Office, 4300 Goodfellow
                    Boulevard, St. Louis, Missouri
01/29/92   All039   Audit of Region 6 Finance Division's Processing of
                    Travel Vouchers
                                                                           lEI


                Appendix //- Au                                            IS      r
                                                                                     Financial
                                                                                 Recommendations
                                                                           Funds To       Questioned
Date of    Audit                                                           Be Put To     (Unsupported)
Report     Number                         Title                            Better Use        Costs
02/04/92   A22706   Limited Audit of the General Services Adminis-
                    tration's Compliance with the Byrd Amendment
                    Restrictions on Lobbying Activities
02/06/92   A20904   Audit of Time and Attendance Practices, East
                    Philadelphia Field Office
02/06/92   A22717   Audit of Controls Over Advisory and Assistance
                    Service Contracts for Fiscal Year 1991
02/07/92   A22703   Limited Audit of the Office of Administration's
                    Fiscal Year 1991 Section 2 Assurance Statement
02/12/92   A22404   Audit of Imprest Fund, San Diego Field Office,
                    Region 9
02/14/92   A1l521   Audit of Imprest Fund, Metro North Field Office,
                    Rockville. Maryland
02/18/92   A22107   Audit of Year-End Spending. Fiscal Year 1991,
                    Region 7
03/04/92   A22422   Audit of Time and Attendance, Las Vegas Field
                    Office. Region 9
03/10/92   All043   Audit of Controls Over Payments for Vehicle
                    Repairs and Maintenance
03/11/92   A21515   Audit of the Imprest Fund. Springfield Field Office.
                    Region 5
03/17/92   A21842   Audit of Time and Attendance Practices of the
                    Region 6 Personnel Division
03/18/92   A20611   Review of Imprest Fund. San Juan Fleet Manage-
                    ment Center
03/19/92   A11067   Audit of Region 6's Processing of Imprest Fund.
                    Reimbursement Vouchers
03/20/92   A22431   Audit of Imprest Fund Number 1005. Blaine
                    Border Station. Region 10
03/24/92   A22423   Audit of Imprest Fund. Las Vegas Field Office.
                    Region 9
03/25/92   A22119   Audit of Imprest Fund. EI Paso. Texas Buildings
                    Management Field Office. Region 7
                                                      port
                                                                              Financial
                                                                          Recommendations
                                                                       Funds To      Questioned
Date of    Audit                                                       Be Put To    (Unsupported)
Report     Number                       Title                          Better Use       Costs

NON-GSA INTERNAL AUDITS
10/22/91   Al1648   Review of the Administrative Procedures for the
                    Barry M. Goldwater Scholarship and Excellence in
                    Education Foundation
10/31/91   Al1664   Audit of the Administrative Procedures for the
                    United States Commission for the Preservation of
                    America's Heritage Abroad
02/28/92   Al1943   Audit of the Administrative Procedures of the
                    Administrative Conference of the United States
                      Appen               111- Delinquent Debts



GSA's Office of the Chief Financial Officer                    reports all colletion deposits and transfers on
provided the following information.                            a daily basis.
                                                          ..   Initiated the evaluation of the IRS Tax Refund
                                                               Offset Program for possible use by GSA in
GSA Efforts To Improve Debt                                    collecting delinquent debts and in acquiring
                                                               social security numbers when they are not
Collection                                                     readily available in order to refer debts to
During the period October 1, 1991 through March                collection agencies or the Department of
31, 1992, GSA efforts to improve debt collection               Justice.
and reduce the amount of debt written off as              ..   Revised internal procedures and personal
uncollectible focused on upgrading collections                 computer control records for debtor accounts.
functions and enhancing debt management. These
activities included the following:                        ..   Reviewed accounts receivable operations in
                                                               one region to ensure compliance with the Debt
•   Began participating in a pilot program with the            Collection Act of 1982. This review included
    Department of the Treasury to evaluate their               examinations of account servicing procedures
    Cash-Link Program, an on-line program which                for non-Federal activities.


Non-Federal Accounts Receivable
                                                 As of                           As of
                                            October I, 1991                  March 31, 1992     Difference
                                          -------------------- - - - - - -




Total Amounts Due GSA                         $43,563,792                     $44,532,519       $968,727
Amount Delinquent                             $20,288,062                     $21,048,960       $760,898

Total Amount Written
Off as Uncollectible
Between 10/1/91 and
3/31/92                                         $1,006,530


Of the total amounts due GSA and the amounts            1992, $4 million and $2.9 million, respectively, are
delinquent as of October 1, 1991 and March 31,          being disputed.
                  A endix IV -- R orting Requirements



The table below cross-references the reporting                           requested by the Congress in Senate Report No.
requirements prescribed by the Inspector General                         96-829 relative to the 19S0 Supplemental
Act of 1975, as amended, to the specific pages                           Appropriations and Rescission Bill is also cross-
where they are addressed. The information                                referenced to the appropriate page of the report.


                                                       Requirement

  Inspector General Act
     Section 4(a)(2)-Review of Legislation and Regulations ......................................................... 15

     Section 5(a)(1)-Significant Problems, Abuses, and Deficiencies ........................................... 3,6

     Section 5(a)(2)-Recommendations With Respect to Significant Problems,
       Abuses, and Deficiencies ................................................................................................. 3,6

     Section 5(a)(3)-Prior Recommendations Not Yet Implemented .............................................. 23

     Section 5(a)(4)-Matters Referred to Prosecutive Authorities ................................................. 19

     Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information Was Refused ........ None

     Section 5(a)(6)-List of Audit Reports ................................................................................... 25

     Section 5(a)(7)-Summary of Each Particularly Significant Report ........................................ 3,6

     Section 5(a)(S)-Statistical Tables on Management Decisions on Questioned Costs ............... IS

     Section 5(a)(9)-Statistical Tables on Management Decisions on Recommendations
      That Funds Be Put to Better Use ..................................................................................... 17

     Section 5(a)(1O)-Summary of Each Audit Report Over 6 Months Old
       for Which No Management Decision Has Been Made ...................................................... None

     Section 5(a)( 11)-Description and Explanation for Any Significant Revised
       Management Decision ................................................................................................... None

     Section 5(a)(12)-Information on Any Significant Management Decisions
      With Which the Inspector General Disagrees .................................................................. None

  Senate Report No. 96-829
     Resolution of Audits ........................................................................................................... 16

     Delinquent Debts ................................................................................................................ 51
tes
Notes
                           ~
Federal Recycling program ....'   Printed on Recycled Paper
